<html>
<title> - RESPONDING TO CATASTROPHIC EVENTS: THE ROLE OF THE MILITARY AND NATIONAL GUARD IN DISASTER RESPONSE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                   RESPONDING TO CATASTROPHIC EVENTS:
    THE ROLE OF THE MILITARY AND NATIONAL GUARD IN DISASTER RESPONSE

=======================================================================

                             JOINT HEARING

                                  the

                       SUBCOMMITTEE ON EMERGENCY
                 PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                          [Serial No. 109-56]

                                with the

                       SUBCOMMITTEE ON TERRORISM,
                UNCONVENTIONAL THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                          [Serial No. 109-83]

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 9, 2005

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
33-474                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007

                               __________


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael T. McCaul, Texas             James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

     SUBCOMMITTE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                 Dave G. Reichert, Washington Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Michael T. McCaul, Texas             Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Ginny Brown-Waite, Florida           Islands
Peter T. King, New York (Ex          Bob Etheridge, North Carolina
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)
?

                      COMMITTEE ON ARMED SERVICES

                  Duncan Hunter, California, Chairman

Curt Weldon, Pennsylvania            Ike Skelton, Missouri
Joel Hefley, Colorado                John Spratt, South Carolina
Jim Saxton, New Jersey               Solomon P. Ortiz, Texas
John M. McHugh, New York             Lane Evans, Illinois
Terry Everett, Alabama               Gene Taylor, Mississippi
Roscoe G. Bartlett, Maryland         Neil Abercrombie, Hawaii
Howard P. ``Buck'' McKeon,           Marty Meehan, Massachusetts
California                           Silvestre Reyes, Texas
Mac Thornberry, Texas                Vic Snyder, Arkansas
John N. Hostettler, Indiana          Adam Smith, Washington
Walter B. Jones, North Carolina      Loretta Sanchez, California
Jim Ryun, Kansas                     Mike McIntyre, North Carolina
Jim Gibbons, Nevada                  Ellen O. Tauscher, California
Robin Hayes, North Carolina          Robert A. Brady, Pennsylvania
Ken Calvert, California              Robert Andrews, New Jersey
Rob Simmons, Connecticut             Susan A. Davis, California
Jo Ann Davis, Virginia               James R. Langevin, Rhode Island
W. Todd Akin, Missouri               Steve Israel, New York
J. Randy Forbes, Virginia            Rick Larsen, Washington
Jeff Miller, Florida                 Jim Cooper, Tennessee
Joe Wilson, South Carolina           Jim Marshall, Georgia
Frank A. LoBiondo, New Jersey        Kendrick B. Meek, Florida
Jeb Bradley, New Hampshire           Madeleine Z. Bordallo, Guam
Michael Turner, Ohio                 Tim Ryan, Ohio
John Kline, Minnesota                Mark Udall, Colorado
Candice S. Miller, Michigan          G.K. Butterfield, North Carolina
Mike Rogers, Alabama                 Cynthia McKinney, Georgia
Trent Franks, Arizona                Dan Boren, Oklahoma
Bill Shuster, Pennsylvania
Thelma Drake, Virginia
Joe Schwarz, Michigan
Cathy McMorris, Washington
Michael Conaway, Texas
Geoff Davis, Kentucky

                   Robert L. Simmons, Staff Director

   SUBCOMMITTEE ON TERRORISM UNCONVENTIONAL THREATS AND CAPABILITIES

                    Jim Saxton, New Jersey, Chairman

Robin Hayes, North Carolina          Marty Meehan, Massachusetts
W. Todd Akin, Missouri               Adam Smith, Washington
Joe Wilson, South Carolina           Mike McIntyre, North Carolina
John Kline, Minnesota                Ellen O. Tauscher, California
Bill Shuster, Pennsylvania           Robert Andrews, New Jersey
Geoff Davis, Kentucky                James R. Langevin, Rhode Island
Joel Hefley, Colorado                Rick Larsen, Washington
Mac Thornberry, Texas                Jim Cooper, Tennessee
Jim Gibbons, Nevada                  Jim Marshall, Georgia
Jeff Miller, Florida                 Cynthia McKinney, Georgia
Frank A. LoBiondo, New Jersey

              Thomas E. Hawley, Professional Staff Member

                Jean D. Reed, Professional Staff Member

                         Uyen T. Dinh, Counsel

              William H. Natter, Professional Staff Member

                   Brian R. Anderson, Staff Assistant

                                 (III)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security                                                   8
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington, and Chairman, Subcommittee on 
  Emergency Preparedness, Science, and Technology:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Science and Technology                   3
The Honorable Jim Saxton, a Representative in Congress From the 
  State of New Jersey, and Chairman, Subcommittee on Terrorism, 
  Unconventional Threats and Capabilities, Committee on Armed 
  Services:
  Oral Statement.................................................     5
  Prepared Statement.............................................     5
The Honorable Ellen O. Tauscher, a Representative in Congress 
  From the State of California, and Ranking Member, Subcommittee 
  on Terrorism, Unconventional Threats and Capabilities, 
  Committee on Armed Services....................................     6
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    41
The Honorable Geoff Davis, a Representative in Congress From the 
  State of Kentucky..............................................    48
The Honorable Susan A. Davis, a Representative in Congress From 
  the State of California........................................    52
The Honorable John Kline, a Representative in Congress From the 
  State if Minnesota.............................................    43
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode of Rhode Island........................    33
The Honorable Rick Larsen, a Representative in Congress From the 
  State of Washington............................................    45
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    50
The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut...........................................    40

                               Witnesses

Lieutenant General H. Steven Blum, Chief, National Guard Bureau, 
  U.S. Department of Defense:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25
Admiral Thomas H. Collins, Commandant, U.S. Coast Guard, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21
The Honorable Michael P. Jackson, Deputy Secretary, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
The Honorable Paul McHale, Assistant Secretary of Defense, 
  Homeland Defense, U.S. Department of Defense:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Major General Richard J. Rowe, Jr., Director of Operations, U.S. 
  Northern Command, U.S. Department of Defense:
  Oral Statement.................................................    26
  Prepared Statement.............................................    27

                             FOR THE RECORD

Questions from the Honorable Mike Rogers for Major General 
  Richard J. Rowe................................................    53
Questions from the Honorable Bennie G. Thompson for Major General 
  Richard J. Rowe................................................    54


                   RESPONDING TO CATASTROPHIC EVENTS:
                 THE ROLE OF THE MILITARY AND NATIONAL
                       GUARD IN DISASTER RESPONSE

                              ----------                              


                      Wednesday, November 9, 2005

                          House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Emergency Preparedness,
                                    Science and Technology,
                                           with the
                       Committee on Armed Services,
                  Subcommittee on Terrorism, Unconventional
                                  Threats and Capabilities,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Dave Reichert 
[chairman of the subcommittee] presiding.
    Present: Representatives Reichert, Saxton, Simmons, Rogers, 
Kline, Davis of Kentucky, Dent, LoBiondo, Pascrell, Thompson, 
Davis of California, Tauscher, Lowey, Langevin, Christensen, 
Etheridge, Marshall, McKinney, and Larsen.
    Mr. Reichert. [Presiding.] Good morning. The joint hearing 
of the Committee on Homeland Security, Subcommittee on 
Emergency Preparedness, Science and Technology, and the 
Committee on Armed Services, Subcommittee on Terrorism, 
Unconventional Threats and Capabilities, will come to order.
    The subcommittees are meeting today in joint session to 
hear testimony on the role of the military and the National 
Guard in responding to catastrophic events.
    Let me first welcome our distinguished witnesses from the 
Departments of Homeland Security and Defense. We greatly 
appreciate your appearance before us today for this important 
joint hearing.
    Before we start, I would like to commend Chairman Jim 
Saxton and Ranking Member Marty Meehan of the Subcommittee on 
Terrorism, Unconventional Threats and Capabilities for their 
leadership on homeland defense issues.
    And I especially appreciate their willingness to hold this 
joint hearing with the House Committee on Homeland Security, 
Subcommittee on Emergency Preparedness, Science and Technology, 
which I chair with the able assistance of Ranking Member Bill 
Pascrell.
    This joint hearing is a timely one. The deployment of 
thousands of federal troops to New Orleans in response to 
Hurricane Katrina has spurred fresh debate about whether the 
Department of Defense and not the Department of Homeland 
Security should be the lead federal agency in responding to 
disasters of great magnitude.
    In a nationally televised address from New Orleans on 
September 15, 2005, President Bush contended, ``It is now clear 
that a challenge on this scale requires greater federal 
authority and a broader role for the Armed Forces, the 
institution of our government most capable of massive 
logistical operations on a moment's notice.''
    To an American public understandably upset by the slow 
response to Hurricane Katrina and frightened by possible avian 
flu outbreak, the president's suggestion merits serious 
discussion. There are, however, constitutional, legal and 
practical constraints on the military's ability to assume the 
primary role in responding to catastrophic emergencies.
    First, under our nation's constitutional framework, state 
and local governments take the lead role in responding to 
disasters and emergencies while the federal government and the 
military take a supporting role.
    As the former sheriff of King County in Washington state, I 
fear than an enhanced role for the military in responding to 
disasters and emergencies may undermine federalism and may even 
encourage some already financially strapped state and local 
governments from using their own scarce resources for something 
that they might expect the federal government and the military 
to handle.
    Second, as the lead agency for responding to catastrophic 
events, the Pentagon may be required to perform certain law 
enforcement functions. Such a result may upset the delicate 
balance of civilian-military relations that is well-established 
principle of our democratic form of government that the 
Pentagon should not conduct domestic law enforcement 
activities, such as investigating, arresting and incarcerating 
individuals.
    Nevertheless, when local and state governments are 
completely overwhelmed, federal troops may be needed to 
maintain law and order. Such situations may test the limits of 
Posse Comitatus Act.
    Finally, as a practical matter, an enhanced role for the 
military and the National Guard in responding to domestic 
catastrophes could undermine our nation's defense capabilities. 
The military's principal responsibility is to protect the 
United States from direct attack, not to respond to disasters 
and emergencies.
    If the military assumes primary responsibility for both 
national defense and emergency response, then its dual missions 
may drain valuable resources and personnel. This result may 
inadvertently harm military readiness to defend the United 
States.
    I want to again thank the witnesses for their testimonies 
today and our colleagues in the Armed Services for holding this 
joint hearing with us. And I look forward to discussing these 
and other issues with all of you this morning.
    Again, thank you all for being here.
    The chair now recognizes the ranking minority member of the 
Subcommittee on Emergency Preparedness, Science and Technology, 
the gentleman from New Jersey, Mr. Pascrell, for any statement 
that he may have.

          Prepared Opening Statement of Hon. Dave G. Reichert

    Good morning. Let me first welcome our distinguished witnesses from 
the Departments of Homeland Security and Defense. We greatly appreciate 
your appearance before us today for this important joint hearing.
    Before we start, I'd like to commend Chairman Jim Saxton and 
Ranking Member Marty Meehan of HASC's Subcommittee on Terrorism, 
Unconventional Threats and Capabilities for their leadership on 
homeland defense issues.
    And I especially appreciate their willingness to hold this joint 
hearing with the House Committee on Homeland Security's Subcommittee on 
Emergency Preparedness, Science, and Technology--which I chair with the 
able assistance of Ranking Member Bill Pascrell.
    This joint hearing is a timely one. The deployment of thousands of 
Federal troops to New Orleans in response to Hurricane Katrina has 
spurred fresh debate about whether the Department of Defense, not the 
Department of Homeland Security, should be the lead Federal agency in 
responding to disasters of great magnitude.
    In a nationally televised address from New Orleans on September 15, 
2005, President Bush contended that ``it is now clear that a challenge 
on this scale requires greater Federal authority and a broader role for 
the armed forces--the institution of our government most capable of 
massive logistical operations on a moment's notice.''
    To an American public understandably upset by the slow response to 
Hurricane Katrina and frightened by a possible avian-flu outbreak, the 
President's suggestion sounds sensible. There are, however, 
constitutional, legal, and practical constraints on the military's 
ability to assume the primary role in responding to catastrophic 
emergencies.
    First, under our Nation's constitutional framework, State and local 
governments take the lead role in responding to disasters and 
emergencies, while the Federal government and the military take a 
supporting role. As the former Sheriff of King County, Washington, I 
fear that an enhanced role for the military in responding to disasters 
and emergencies may undermine Federalism and deter already financially 
strapped State and local governments from using their scare resources 
for something that the Federal government and the military will handle.
    Second, as the lead agency for responding to catastrophic events, 
the Pentagon may be required to perform certain law enforcement 
functions. Such a result may upset the delicate balance of civilian-
military relations. It is a well-established principle of our 
democratic form of government that the Pentagon should not conduct 
domestic law enforcement activities, such as investigating, arresting, 
and incarcerating individuals. Nevertheless, when local and State 
governments are completely overwhelmed, Federal troops may be needed to 
maintain law and order. Such situations may test the limits of the 
Posse Comitatus Act.
    Finally, as a practical matter, an enhanced role for the military 
and the National Guard in responding to domestic catastrophes could 
undermine our Nation's defense capabilities. The military's principal 
responsibility is to protect the United States from direct attack, not 
to respond to disasters and emergencies. If the military assumes 
primary responsibility for both national defense and emergency 
response, then its dual missions may drain valuable resources and 
personnel. This result may inadvertently harm military readiness to 
defend the United States.
    I want to again thank the witnesses for their testimony today, and 
our colleagues on Armed Services for holding this joint hearing with 
us. I look forward to discussing these and other issues with all of you 
this morning.

    Mr. Pascrell. Thank you, Mr. Chairman and Chairman Saxton, 
Chairman King, Chairman Thomas. I am pleased to be here today 
with my colleagues from both the Committees on Homeland 
Security and Armed Forces to explore and examine the role of 
the military and the National Guard in disaster response.
    Clearly, the recent bombardment of hurricanes throughout 
the Gulf Coast has focused the nation's attention on the use of 
the military in domestic emergencies, and rightfully so. We are 
all thankful for our men and women in the military, where in 
active-duty, Reserves, the National Guard, who responded boldly 
and honorably to the catastrophes that nature wrought on our 
citizens.
    The ability of people who comprise our Armed Forces is 
never in question. The response to these events should be 
commended and are being commended.
    I believe that recent calls to require a broader role and 
greater authority for the Armed Forces during such challenges 
are misplaced and ill-advised. The worst lesson we could take 
away from the hurricanes would be to irrevocably alter our 
emergency management system in a way that would take all 
control out of the hands of local and state first responders 
who have a deep familiarity with their communities.
    Placing the military in control would obviously create 
conflict in long-existing statutes and conventions that prevent 
the military from becoming inappropriately involved in civilian 
affairs. The military can and, at times, must supplement the 
relief efforts the locals undertake.
    But, in general, having the officers of our Armed Forces go 
into unfamiliar communities and explicitly control the 
decision-making process by which state and local officials and 
first responders must adhere is not an appropriate solution.
    The fact is that these hurricanes, and Hurricane Katrina in 
particular, showed America that there is a massive failure in 
the very basic coordination of efforts among federal, state and 
local agencies. This is what must be remedied.
    For example, the Department of Homeland Security must start 
doing its job and coordinate the Federal Government's response 
efforts. Hurricane Katrina demonstrated that, while plans 
exist, there is a need for a much greater understanding on the 
parts of federal, state and local governments about their 
respective roles in regards to disaster response.
    The National Response Plan is only valuable if these 
officials use it and use it correctly. To that end, Department 
of Homeland Security (DHS) and Department of Defense (DOD) need 
to clarify their respective roles and missions during a natural 
disaster and how they operate and coordinate within the 
National Response Plan.
    And when doing this, we need to be flexible enough to 
accommodate the possibility that certain DOD and National Guard 
assets may not be available if the United States is in a 
conflict when a disaster occurs.
    In addition, many National Guard troops are also members of 
the local law enforcement community. Any federal plans must 
consider the impact on the local law enforcement community if 
these individuals are called up to perform National Guard 
duties.
    That being said, I am interested in learning what the 
Department of Homeland Security is doing to improve state and 
local governments' ability to respond quickly, thus minimizing 
the need for any supplemental military response in the first 
place.
    As we move forward, we must proceed deliberately and with 
great care. I look forward to engaging our witnesses today 
about how best to coordinate the capabilities of DHS and DOD 
and to help ensure that another disastrous response to a 
national catastrophe does not happen again.
    And I thank our distinguished witnesses for being here 
today and salute your service to this country.
    I yield back.
    Mr. Reichert. Thank you, Mr. Pascrell.
    The chair now recognizes the chairman of the Subcommittee 
on Terrorism, Unconventional Threats and Capabilities, the 
gentleman from New York, Mr. Saxton, for any statement he may 
have.
    Mr. Saxton. Mr. Chairman, thank you very much.
    In the interest of time, let me ask unanimous consent that 
my statement be included in the record.
    And let me just say this. First, I want to thank the 
dedicated gentlemen who are here today to serve as our 
witnesses to discuss what I think is the most important 
subject, perhaps in a long time, perhaps in decades, maybe in 
the history of our country.
    Today we face a threat from overseas, which is unlike any 
threat that we have ever faced before. It is a threat that is 
misunderstood by many people around the world, in particular in 
this country.
    And it is through the efforts of the people that our 
witnesses, who are here today, lead, that we have been able to 
work to prevent additional attacks, like the attack on 9/11 and 
other attacks that we see perpetrated in other parts of the 
world.
    And let me just finally say this. When I was a freshman in 
Congress in 1994, Ronald Reagan said something to me that I 
will always remember. He said, ``Of all the subjects you deal 
with in the Congress of the United States, all of which are 
important, none of them are as important as providing national 
security for our country.''
    I have always remembered that statement and have tried to 
remember it each day when I come to work here to represent the 
people of the third district of New Jersey and the other people 
from around the country.
    So, Mr. Chairman, thank you for hosting this meeting today. 
I appreciate it very much. And I look forward to hearing from 
our witnesses.

             Prepared Statement of the Honorable Jim Saxton

    The Subcommittee on Terrorism, Unconventional Threats and 
Capabilities meets this morning in join session with our colleagues 
from the Committee on Homeland Security's Subcommittee on Emergency 
Preparedness, Science and Technology to discuss and understand the role 
of the Military and National Guard in responding to catastrophic 
events. It is no surprise that the Department of Defense and Homeland 
Security share similar joint interests across a range of areas, and we 
hope to foster and encourage greater cooperation than already exists 
between these two vitally imporant executive branch departments.
    Nothing we do in Congress is more important than national security. 
DOD and DHS are the lead federal agencies in assuring the safety and 
security of the American public and must work together in a seamless 
fashion as they work to deter and defeat terrorism.
    The importance of military preparedness to deal with a catastrophic 
event cannot be overstated. While Hurricane Katrina demonstrated the 
great challenges our leaders face when implementing an emergency 
response plan, we have to remember that in the case of Katrina we had 
three days warning. In the case of a terrorist attack we will not have 
the luxury of a warning.
    As Chairman of the House Armed Services Subcommittee on Terrorism 
and Unconventional Threats, I am constantly reminded that Global 
Jihadists actively seek to carry out a catastrophic event on our soil. 
This threat, therefore, makes the military's response capability a 
matter of great importance.
    It is precisely because of the threat posed by the nexus of 
terrorism and weapons of mass destruction that the Terrorism 
Subcommittee began working on this hearing with the Homeland Security 
Committee prior to Hurricane Katrina striking the Gulf States.
    While it is not within the purview of this hearing to address the 
Federal response to hurrican Katrina, today's hearing will focus on 
some of the issues raised subsequent to Katrina. Much of this interest 
surrounds statements made by the President on September 15 in Louisiana 
where he called for an increased role for the military in responding to 
catastrophic events. I am curious to hear if our witnesses have 
anything more to say on this proposal.
    Fortunately, since September 11 our country have worked to prevent 
al-Qa'ida, and similar Jihadist groups, from perpetrating another 
attacvkon U.S. soil. Our success in prevention, however, should not 
make us lax in our preparedness to deal with an attack in the event it 
occurs. We must be ready.
    With that I'd like to thank Chairman Reichert for hosting today's 
joint session, and thank our witnesses for joining us today.

    Mr. Reichert. Thank you, Mr. Saxton.
    The chair now recognizes the ranking minority member of the 
Subcommittee on Terrorism, Unconventional Threats and 
Capabilities, the gentlelady from California, Ms. Tauscher.
    Mrs. Tauscher. Thank you, Mr. Chairman. And thank you for 
the opportunity to meet this morning in joint session with our 
two subcommittees.
    The security of our nation is the top priority for both of 
our committees. And while I know we each spend a great deal of 
time exploring these issues, I am glad to see part of that 
effort will occur today in a collaborative setting.
    Mr. Chairman, the chain of events that has occurred over 
the past couple of months has shown that our military possesses 
an extraordinary capability to respond to natural disasters. 
While the overall response to Hurricanes Katrina, Rita and 
Wilma may not have always been seamless, the active-duty and 
National Guard forces have proven time and again that they have 
the ability to handle events of such magnitude and 
significance.
    Today's hearing is not intended to examine the specific 
response efforts in these instances but rather to explore the 
overall efforts to respond to either natural or manmade 
disasters, as they are coordinated between the Department of 
Homeland Security, Department of Defense, and the National 
Guard.
    It is my hope that we might delve a bit deeper into the 
issue of interagency coordination and the possibility for 
increased use of military in responding to catastrophic events.
    I look forward to hearing from our witnesses, their 
thoughts on the unity of effort in these situations, and pre-
event planning that occurs between various agencies.
    I thank you for your service to your country and to this 
committee.
    And, Mr. Chairman, I yield back.
    Mr. Reichert. Thank you.
    It is also our pleasure to have with us this morning on our 
panel the chairman of the full Committee on Homeland Security 
and also the ranking member of the full committee.
    And, first, the chair will now recognize the chairman of 
the Homeland Security Committee, the gentleman from New York, 
Mr. King.
    Mr. King. Thank you, Chairman Reichert and Chairman Saxton, 
Ranking Member Tauscher, Bill Pascrell, Bennie Thompson.
    I will keep my remarks very brief. But as the previous 
speakers have all said, if there was one shining light from the 
Katrina crisis, it was the outstanding performance of our 
military.
    And I want to thank all of you at the table here today, all 
the witnesses, for the job that you have done and the job you 
continue to do for our country.
    Today's hearing, obviously, raises questions about the 
usurping of the traditional power of local and state 
governments, whether or not regular use of the military would 
stretch you too thin at this time in our nation's history, 
whether or not Posse Comitatus or the Insurrection Act would 
have to be amended or adjusted.
    But I think it is important we have this hearing, to see if 
there are any key places where the military can be used more 
than it has been used in the past, if they should be pre-
positioned more than they have been used in the past, whether 
or not there can be greater coordination between the Department 
of Homeland Security--I know Secretary Jackson is here--between 
Homeland Security and with the Pentagon, whether or not Federal 
Emergency Management Agency (FEMA) should coordinate itself 
better with the military.
    All of these issues, I think, are important to be 
discussed. I have no preconceptions of what the answers should 
be. I know they are serious questions. I know there could be 
doubts raised.
    But at the same time, since we do face, as Chairman Saxton 
said, these are very turbulent, uncertain times. We are going 
places we have never gone before. And I do not think we should 
preclude or rule anything out and we should see exactly how we 
could maximize to the greatest use all of our resources.
    And certainly, there is no resource greater than the 
military. And I know the Homeland Security wants to work as 
closely with you as possible, if we decide to go that route.
    So with that, regrettably, I will not be able to stay for 
much of the hearing. And I have two other meetings I have to go 
to, but I commend Chairman Reichert and Chairman Saxton for 
having this joint hearing.
    I think it also shows the awareness we have is that 
terrorism does not stop at the nation's borders. This is both 
an overseas and a domestic issue. I think it is very important 
that our two committees do work together in such a 
collaborative fashion, as Congresswoman Tauscher indicated.
    So thank you for your testimony today.
    And I thank the two chairmen and the two subcommittees for 
bringing together this hearing.
    I yield back.

                 Prepared Statement of Hon. Peter King

    Thank you, Chairman Saxton and Chairman King for holding this 
important hearing. I also would like to welcome and thank our witnesses 
for appearing before us this morning. I look forward to hearing each of 
your unique perspectives on the proper role of the military and the 
National Guard in responding to catastrophic disasters.
    The recent, dramatic deployment of thousands of Federal troops to 
New Orleans in response to Hurricane Katrina has spurred fresh debate 
about whether the Administration should designate the Department of 
Defense as the lead Federal agency in responding to disasters of 
extraordinary magnitude, whether natural or manmade.
    Although the military's response to Hurricane Katrina has not been 
without its problems, it is widely agreed that active duty forces and 
the National Guard performed admirably. The call to ``give the military 
the disaster response function'' sounds sensible to many Americans. But 
doing so is not so simple.
    Before taking such a drastic step, however, there are many 
questions that need to be addressed:
        <bullet> Would an enlarged role for the military and the 
        National Guard undermine Federalism and usurp the 
        responsibility of State and local authorities?
        <bullet> Is an enlarged role for the military even necessary? 
        Isn?t the National Response Plan sufficient to facilitate 
        military support to civilian authorities? If not, what changes 
        need to be made to it?
        <bullet> Would a greater role for military and the National 
        Guard undermine its traditional war fighting role?
        <bullet> Would a greater response role for the military and the 
        National Guard require Congress to amend the Posse Comitatus 
        Act?
    I look forward to your answers to these and other questions. Again, 
I want to thank the witnesses for testifying today and our colleagues 
on Armed Services for holding this joint hearing with us. I yield back 
the balance of my time.

    Mr. Reichert. Thank you, Chairman King.
    The chair now recognizes the ranking minority member of the 
Homeland Security Committee, the gentleman from Mississippi, 
Mr. Thompson, for any statement he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman and ranking 
members. I, too, have looked forward to the opportunity to hear 
the testimony of our witnesses.
    Admiral Collins, Assistant Secretary McHale, Major General 
Rowe, General Blum, I must commend all of you for your efforts 
with the response to Hurricane Katrina. My district was one of 
those districts that was also impacted. We still suffer.
    The military's role was absolutely invaluable in that 
process. And for that, I thank you.
    But we are here today to examine the role of the military 
and the National Guard in disaster response. President Bush has 
suggested the Congress re-examine the role of the military and 
the National Guard in responding to catastrophic events.
    Some people have even recommended that the military should 
have control over federal, state and local authorities during 
disasters. I disagree. The Department of Homeland Security 
should remain in charge of this mission; the real issue is 
whether or not the Department of Homeland Security is doing its 
job.
    It is time for the department to demonstrate leadership and 
properly coordinate the Federal Government's response efforts.
    Deputy Secretary Jackson, you told the Homeland Security 
Appropriations Subcommittee last month that Hurricane Katrina 
was a once-in-a-century event. I disagree with that.
    September 11th happened 4 years ago. Experts agree that it 
is not a matter of when but if the next event occurs.
    I recommend that the Department of Homeland Security and 
Defense more clearly define their respective roles and 
responsibilities in this. The department should review the 
military's role within the National Response Plan.
    It is also time for the department to release the 
supplement to the Catastrophic Incident Annex.
    In addition, I am interested and learning more about the 
department, of the two departments within local and state 
officials, your relationship.
    To what degree are state and local officials participating 
in joint exercises within the military and the Department of 
Homeland Security? In my state, during Hurricane Katrina, many 
officials involved in a response, this was their first time 
ever meeting each other.
    And you should not meet each other at the hurricane. You 
should have some plans put together.
    The other thing is, I would like to recognize the efforts 
of a Sergeant Russell, an Air Force reservist who died while on 
duty during Hurricane Katrina. Sergeant Russell was a former 
Marine who had recently returned from Iraq. He died while 
trying to assist others.
    General Blum and Admiral Collins, Representative Taylor 
recently contacted both of you to seek your assistance in 
formally recognizing Sergeant Russell. I implore both of you to 
act quickly and expeditiously in recognizing Sergeant Russell 
and his contribution during Hurricane Katrina.
    I yield back.
    Mr. Reichert. Thank you, Mr. Thompson.
    Other members of the committee are reminded that opening 
statements may be submitted for the record.

    We are pleased to have a distinguished panel of witnesses 
with us today. And they are: first, the honorable Michael P. 
Jackson, Deputy Secretary, U.S. Department of Homeland 
Security; the Honorable Paul McHale, Assistant Secretary of 
Defense for Homeland Defense in U.S. Department of Defense; 
Admiral Thomas H. Collins, Commandant, U.S. Coast Guard, U.S. 
Department of Homeland Security; Major General Richard Rowe, 
Jr., Director of Operations, U.S. Northern Command, U.S. 
Department of Defense; and Lieutenant General Steven Blum, 
Chief, National Guard Bureau, U.S. Department of Defense.
    Let me gently remind the witnesses that their entire 
written statement will appear in the record. And we ask that, 
due to the number of witnesses on our panel today, that you 
strive to limit your testimony to no more than 5 minutes.
    The chair recognizes the Honorable Michael P. Jackson, 
Deputy Secretary of the U.S. Department of Homeland Security, 
to testify.

              STATEMENT OF HON. MICHAEL P. JACKSON

    Mr. Jackson. Thank you, Mr. Chairman, ranking members, 
members of the committee.
    I appreciate very much this opportunity to visit with you 
today and to discuss the role of the Department of Homeland 
Security, the Department of Defense, our active-duty military 
forces and National Guard on these vital issues. So thank you 
for convening this important hearing today. And thank you for 
having us.
    I am convinced that the scope and the devastation of 
Hurricane Katrina is understood, but I am constantly focused 
and reminded that this misery that was visited upon our 
friends, our neighbors in these states, is an opportunity for 
us to do better.
    And as our recovery continues, we have continued to focus 
on these victims and the lessons that we have learned here.
    But first, I want to do, as you have done, and salute the 
members of the military and the other first responders who 
leapt into this incident with such effectiveness. There are 
many, many good stories here, in my own department, at FEMA, in 
the Coast Guard, Air Marshals, Transportation Security 
Administration (TSA), Immigration and Customs Enforcement 
(ICE), and Customs and Border Protection (CBP).
    The full range, really, of our department threw assets into 
this battle. My colleagues, who representing here today, the 
military and the National Guard assets that were thrown into 
this fray did superb work and tremendous work for which we are 
deeply grateful and proud. And, really, all across the Federal 
Government, others just picked up their kit and went into 
action.
    Without question, however, Hurricane Katrina posed an 
extraordinary challenge for our collective response 
capabilities, at all levels of government, across all levels of 
government, nongovernmental organizations and the private 
sector, as well.
    It stressed some systems and it broke others. As President 
Bush said, the overall results are not acceptable. He also said 
that it was important that both the Administration and Congress 
work together, take a good look at what went on, and to make 
sure that our country is knitted up well as it can be in order 
to deal with significant problems and disasters.
    ``I am interested,'' the president further said, ``in 
solving problems.'' The president is exactly right. There are 
obviously processes that need fixing. There are tools, 
managerial and otherwise, that are missing. We continue to 
identify lessons learned that will provide a foundation for 
improvement.
    And in all of this, we have to ask a simple question: What 
works? What works? And we focus on that.
    Regarding military operations, we had close cooperation and 
many success in Katrina. I think that we learned very quickly. 
And, by the time we got to Hurricane Rita, we had already 
implemented some very meaningful lessons learned.
    Let me just say an introductory word about how DHS works 
with the Defense Department. And I will not try to cover the 
details of this, which are in not only my prepared remarks, but 
in Secretary McHale's remarks, as well as others.
    But we obviously work with DOD through the mechanism of the 
National Response Plan, published in December 2004. It provides 
the framework in the overall federal incident management 
structure for these efforts.
    DOD is a signatory to the NRP. And until Title 10 
authority, it plays an absolutely vital role in providing 
federal emergency management assets, closely coordinated with 
state and local authorities.
    The Department of Defense's assets are tapped through its 
civil support functions and support roles. We mission assign 
them. We give them requests for assistance, which they fulfill. 
It is not our job to ask for this helicopter, or this ship, or 
this unit. We give them taskings, and orders, and requirements. 
And they, in turn, assess their capabilities for doing this.
    We ask them for over 90 specific request for assistance 
(RFAs) to do work for us. They took up the assignment with 
every single one. And we have relied on them very 
significantly.
    FEMA's role is not to request, then, these assets, but to 
work closely together. The National Guard plays a tremendously 
important role and has, unless the secretary calls them into 
serve--the President calls them into service, it operates under 
the command of their respective state commanders.
    And, of course, in Hurricane Katrina, the National Guard 
did operate under the command of the states.
    Mr. Chairman, I share your deference to local authorities, 
and that which was stated by many members of the committee 
already here today.
    As this hearing begins to explore the roles of active-duty 
military, Reserves and National Guard, we should use as our 
guide history and our constitutional relationships with the 
states. The first lesson of history is that all disasters are 
local and that it is the first responders on scene locally and 
at the state that we are there to support and to assist.
    In the weeks ahead, the administration will continue 
systematically to collect lessons learned. There are many 
lessons learned. With DOD, we have our own team working. And 
DOD has a team working. We are sharing those messages together 
closely.
    We have learned many things with the experience of our 
Principle Federal Officer (PFO), Thad Allen, who has served 
ably. And I am sure that we can unpack some more of the details 
of that here today.
    We were, as I said, able after Katrina to prepackage, pre-
position, and deploy certain asset clusters in a more rapid 
fashion. And we will also have a chance to discuss those 
lessons learned and exactly how we have surged, in both Katrina 
and in subsequent incidents, Rita, and in Florida.
    So, in summary, I would like to thank the members of this 
committee. This is a terribly important topic. We are eager to 
talk with you. We are eager to learn with you. We are eager to 
support this inquiry.
    [The statement of Mr. Jackson follows:]

                Prepared Statement of Michael P. Jackson

    Introduction. Chairmen Saxton and Reichert, Ranking Members Meehan 
and Pascrell, and members of the Committees: I appreciate the 
opportunity to discuss with your committees important components of the 
nation's overall preparedness. In particular, I will talk about the 
roles of Homeland Security, the military and the National Guard in 
responding to disasters, especially catastrophic incidents.
    The scope of the devastation from Hurricane Katrina--and the misery 
inflicted--was cruel and unprecedented. As our recovery efforts 
continue, DHS's commitment remains focused on Katrina's victims.
    First, I want to salute the literally tens of thousands of men and 
women who surged around this catastrophic disaster, working tirelessly 
and compassionately. At DHS, our FEMA professionals, Coast Guard 
search-and-rescue teams, Air Marshals, TSA screeners and management, 
ICE, Secret Service and CBP agents, headquarters staff and others from 
virtually every part of the Department--all went to help. And help they 
did, tremendously. The same is true for virtually every other federal 
agency.
    Today I am joined by colleagues who will detail in particular the 
extraordinary work of our military forces. We at DHS are grateful for 
the leadership of Lieutenant General Russell Honore and his troops, 
U.S. Northern Command (NORTHCOM) under the leadership of Admiral Tim 
Keating, and Lieutenant General H. Steven Blum, Commander of the 
National Guard.
    The broader federal team has also been in the Gulf states in 
support of our state and local colleagues following Katrina and Rita. 
We were joined by emergency management colleagues who came to help from 
every corner of the Union. Relief and shelter workers, those who opened 
arms to evacuees across the nation and so many more provided so much 
for which we can be proud.
    Without question, however, Hurricane Katrina posed an extraordinary 
challenge to our collective response capabilities across all levels of 
government, non-governmental organizations and the private sector. It 
stressed some systems and broke others.
    As President Bush said, overall ``the results are not acceptable.'' 
He also said that it was important that both the Administration and 
Congress take a good look at what went on to ``make sure that this 
country is knitted up as well as it can be, in order to deal with 
significant problems and disasters. . . . I am interested,'' the 
President further said, ``in solving problems.''
    The President is absolutely right, and the scrutiny of DHS's 
efforts is healthy. There are obviously processes that need fixing. 
There are tools--managerial and otherwise--that are missing. We are 
continuing to identify lessons-learned that will provide a foundation 
for improvement. In all of this, we must ask a simple question: what 
works? Nothing else matters. There is, moreover, no time to delay. DHS 
is an all-hazards agency, and we must be more nimble. A sense of 
urgency and innovation must pervade our work.
    The sheer scope of this incident means we are facing policy and 
operational issues not before confronted. We will continue to work many 
issues for the path forward with Congress in the weeks and months 
ahead. Regarding military operations, I can say that we had successes 
in Katrina. By the time Rita made landfall, we had already absorbed and 
implemented numerous valuable lessons learned from Katrina.
    Department of Defense Responsibilities Under the National Response 
Plan. The National Response Plan (NRP), published in December 2004, 
provides the framework for the overall federal incident management and 
response efforts. The Defense Department, as a signatory to the NRP and 
under Title 10 authorities, plays an important part in providing 
federal emergency management assets, closely coordinated with state and 
local authorities.
    The Department of Defense's main contribution to the NRP is through 
``civil support'' for civilian agencies. The NRP states that when 
requested, support for civil authorities during domestic incidents is 
provided by Defense Department forces upon approval of the Secretary of 
Defense. The Defense Department's role is triggered through Requests 
for Assistance (RFAs)--formal requests from another federal agency 
requesting specific capabilities in support of the federal response 
mission. FEMA initiated those requests for the Hurricane Katrina effort 
and the Defense Department responded to more than 90 RFAs.
    FEMA's role is not to request particular assets, rather to identify 
core needs or performance requirements, which Defense then meets with 
assets it judges most effective. We greatly appreciate all Defense did 
in responding to the FEMA RFAs in support of the Katrina response.
    The National Guard also has an important role to play in disaster 
response. Unless called into federal service by the President, the 
National Guard operates under the command of its respective state 
commanders. In Hurricane Katrina, the National Guard operated under the 
command of the States.
    The President has the authority to call the National Guard into 
federal service when he concludes that he cannot with the regular armed 
forces execute the laws of the United States. In the event that the 
President federalizes the National Guard, it operates under the command 
of the President as part of the regular forces.
    Deference to State and Local Authority. As this hearing begins to 
explore the role of active duty military, Reserves and the National 
Guard in disasters, we should use as a guide our history and our 
constitutional relationships with the states. The first lesson of 
history is that all disasters are local in nature and must be handled 
to the extent possible by local and state actors, with support from the 
federal government as needed.
    As Publius wrote in Federalist No. 45: ``the powers reserved to the 
several States will extend to all the objects which, in the ordinary 
course of affairs, concern the lives, liberties, and properties of the 
people, and the internal order, improvement, and prosperity of the 
State.'' This foundational principal--that state and local actors 
possess the powers within their jurisdictions--guides our emergency 
response planning and work.
    Over the course of the last thirteen years, America has experienced 
numerous significant natural disasters, including Hurricane Andrew in 
1992 and the 1994 Northridge earthquake. In such cases, the federal 
government provided crisis response assets to state and local 
authorities, often including Department of Defense assets.
    Catastrophic Events. While America has met the challenges posed by 
natural disasters, it is important that we think deeply and plan 
rigorously for the full range of catastrophic events before they occur. 
It is important that we have detailed plans for deploying military 
assets, and that these plans respect the chain of command of the 
Secretary of Defense. It is reasonable to examine fully how and when we 
use active duty military and federalize the National Guard--and all 
other federal, state and local assets--in catastrophic incidents.
    Presidents have historically exercised caution when deciding 
whether to use the military domestically, and have given great 
deference to state constitutional authorities in weighing such 
decisions. This deference is especially important when management of a 
disaster moves from a response phase to a recovery phase.
    Without much difficulty, one can certainly imagine a terrorist 
attack or series of coordinated attacks that could have such a 
catastrophic and ongoing effect that Title 10 action would be 
necessary. In cases that might involve extensive damage to state and 
federal institutions and leadership, the case for such action is 
stronger. In most cases of natural catastrophe, deployment of the 
National Guard under the control of the Governor would be the first and 
strongly preferred option.
    Enhancing Homeland Security and Defense Exercise Activity. In the 
years following the September 11th attacks and the creation of Homeland 
Security, we have constituted a National Exercise Program lead by 
Homeland Security that involves widespread federal, state, local, 
tribal and international participation, certainly including Homeland 
Security and the Department of Defense acting in close coordination.
    Most recently, in TOPOFF 3--in the course of a scenario involving a 
biological attack, a chemical attack and a vehicle-borne improvised 
explosive device--Defense activated its Quick Reaction Force. We have 
worked closely with the Joint Chiefs of Staff, and with U.S. Northern 
Command in planning past such exercises and will continue to work 
closely with them in planning future exercises.
    The potential arrival of the H5N1 influenza strain has placed 
additional requirements on our exercise capabilities.
    We will do more to explore ways in which Homeland Security can 
exercise its capabilities and the capabilities of other federal 
departments and agencies using the realistic scenarios portrayed in the 
National Planning Scenarios, while also adding elements involving 
domestic events that warrant activating more extensive Defense 
Department capabilities. The key is to enhance our joint exercises so 
that we learn more about how our collective capabilities can support 
our state, local and tribal partners as well as private sector 
operators of critical infrastructure.
    The Lessons of Hurricane Katrina. In the weeks ahead, the 
Administration will continue systematically to collect and process 
lessons learned from Katrina. From DHS's perspective, a key lesson 
learned is that a robust Principal Federal Official (PFO) command and 
control structure provided under the NRP permits a more disciplined 
engagement with the National Guard and NORTHCOM, especially in truly 
catastrophic events. Homeland Security has pre-designated and trained a 
stable of high-level leaders as PFOs that can be rapidly deployed in a 
matter of hours, if an Incident of National Significance is declared or 
when a PFO is required.
    Another lesson learned is the importance of re-tooling FEMA with 
modern-day logistics, customer service and financial management 
operations. We have much to borrow from the private sector and from 
Defense's Transportation Command on how to manage better the supply 
chain of emergency relief material. Some of the early points of focus 
are in-transit visibility tools, automated inventory replenishment 
systems, fast pull-down capabilities for emergency supplies that are 
managed as close as possible to the delivery point, and pre-negotiated 
contracts for supply chain surge capacity. We need to deploy new 
technology for data management to allow our responders--whether they 
are FEMA employees, military or National Guard members--to have the 
information they need to serve the people who need help.
    Both Defense and DHS have teams looking at interagency coordination 
issues. Prior to the landfall of Hurricane Rita, we had already applied 
valuable Katrina lessons about how to structure, aggregate and manage 
the RFAs presented to Defense. We were able to pre-package, pre-
position, and deploy certain asset clusters more rapidly in advance of 
the second hurricane based on our experience in Katrina. We will 
continue collecting and analyzing the lessons of this hurricane. As 
evaluations are completed and decisions made, we will engage in the 
remedial action necessary to fix what is broken and shore-up what is 
sagging. In all of that, we will focus on how to work better, faster, 
and more effectively with our Defense and National Guard colleagues.
    Conclusion. I want to thank the Chairmen and the members of these 
Committees for exploring this critical issue. Given our country's deep 
history of civilian control at the state and local level for disasters, 
we must proceed carefully and deliberately in determining how best to 
synchronize DHS and Defense capabilities. But as the President said, 
Hurricane Katrina compels us to explore these issues with serious, 
sustained focus and a mind open to change. I look forward to beginning 
that dialogue with you today. Thank you.

    Mr. Reichert. Thank you, Mr. Jackson.
    The chair now recognizes the honorable Paul McHale, 
Assistant Secretary of Defense for Homeland Defense, U.S. 
Department of Defense.

             STATEMENT OF THE HONORABLE PAUL McHALE

    Mr. McHale. Mr. Chairman, members of the committee, in 
order to maximize time for questions, my opening remarks will 
be brief and to the point.
    As we examine the military role in disaster response, it is 
appropriate, even essential, that we review the military 
missions executed most recently in response to Hurricane 
Katrina.
    In that context, it must be noted that the Department of 
Defense response to Hurricane Katrina was the largest, fastest 
deployment of military forces for a civil support mission in 
our nation's history.
    Hurricane Katrina made landfall along the Gulf Coast of the 
United States during the early morning hours of August 29th. By 
landfall plus five, more than 34,000 military forces had been 
deployed into the affected area, more than five times the 
number of military personnel deployed within the same time 
frame in response to 1992's Hurricane Andrew.
    By landfall plus seven, more than 53,000 military personnel 
had been deployed in response to Katrina. That is three times 
the comparable number for Hurricane Andrew.
    And by September the 10th, military forces reached their 
peak at 72,000, 50,000 National Guardsmen, 22,000 active-duty 
personnel, a total deployment for Katrina that was more than 
twice the size of the military response to Hurricane Andrew.
    In scope and speed, no civil support mission in the history 
of the United States remotely approaches the DOD response to 
Hurricane Katrina.
    In addition to 72,000 men and women in uniform, the 
Department of Defense coordinated the deployment of 293 medium-
and heavy-lift helicopters, 68 airplanes, 23 U.S. Navy ships, 
two standing joint headquarters to support FEMA's planning 
efforts.
    The overall impact of the department's efforts was 
significant. DOD military personnel evacuated more than 80,000 
Gulf Coast residents and rescued another 15,000. Two thousand 
military health care professionals provided significant medical 
assistance, including 10,000 medical evacuations by ground and 
air, delivery of medical treatment to more than 5,000 sick and 
injured persons, as well as support for disease prevention and 
control.
    DOD approved the use of nine bases as FEMA logistics 
staging areas for collection and distribution of ice, food, 
water, temporary roofing materials, and medical supplies. DOD 
also delivered critical emergency supplies, more than 30 
million meals, including 24.5 million MREs and some 10,000 
truckloads of ice and water.
    In short, DOD acted with a sense of urgency and met its 
civil support mission requirements. We did so because our men 
and women in uniform acted to minimize paperwork, cut through 
bureaucracy, and provide life-saving assistance.
    That is not to say that our performance cannot be improved. 
DOD communication with first responders was not interoperable. 
Early situational awareness was poor, a problem that should 
have been corrected following identical damage assessment 
challenges during Hurricane Andrew.
    Military command and control was workable but not unified. 
National Guard planning, though superbly executed--I have said 
to my good friend, General Blum, that this may have been the 
finest hour in the history of the National Guard, in terms of a 
domestic civil support mission. The National Guard's 
performance was just superb.
    However, the planning conducted by the National Guard, 
though superbly executed, was not well-integrated with the 
Joint Staff and Northcom. In other words, our task-organized 
deployment reflected DOD's total force, but our operational 
planning did not.
    As President Bush noted on September 25th, it is now clear 
that a challenge on this scale requires greater federal 
authority and a broader role for the Armed Forces, the 
institution of our government most capable of massive 
logistical operations on a moment's notice.
    Clearly, the president has challenged us to examine anew 
the roles, missions and authorities of the Department of 
Defense in responding to catastrophic events.
    In its devastating impact, Hurricane Katrina resembled in 
many ways the foreseeable effects of a terrorist attack 
involving a weapon of mass destruction. Traditional disaster 
response models simply did not apply, in that essential first 
responders had evacuated or lacked equipment, supplies and 
situational awareness.
    Communication channels were non-existent or significantly 
degraded. Thousands of citizens required medical care and basic 
logistical support. The comparison with potential effects from 
a catastrophic terrorist event, nuclear or otherwise, is 
readily apparent. The lessons learned from Katrina go far 
beyond the consequences of a natural disaster.
    Mr. Chairman, the issues that we will examine today are 
fundamental, in terms of federalism, in terms of a prompt 
response, not merely to a major disaster, but to a catastrophic 
event.
    These are issues that are deserving of careful and balanced 
consideration so that we preserve the historic federal 
relationship between the various levels of government, while at 
the same time recognizing the unique capabilities of the 
Department of Defense to deploy organic logistical support in 
an immediate response to American citizens who are desperately 
in need.
    I would welcome your questions.
    [The statement of Mr. McHale follows:]

                 Prepared Statement of Hon. Paul McHale

Introduction
    Chairman Saxton, Chairman Reichert, Ranking Member Meehan, Ranking 
Member Pascrell, distinguished members of the Committees: thank you for 
the opportunity to address you today to discuss responding to 
catastrophic events--the role of the military and National Guard in 
disaster response.
    The Department of Defense is one element of the overall response 
effort to a complete spectrum of incident management activities, 
including the prevention of, preparedness for, response to, and 
recovery from threats or acts of terrorism, major disasters, and other 
emergencies. DoD's response is part of a coordinated effort among 
Federal, State, local, and tribal governments, as well as non-
governmental organizations.
    Where applicable, I will use examples of our recent response to 
Hurricanes Katrina and Rita to illustrate DoD's role in responding to 
catastrophic incidents. In terms of persons displaced, businesses 
disrupted, commerce affected, and projected aggregate economic losses, 
Hurricane Katrina was one of the most catastrophic hurricanes in U.S. 
history. Appropriately, the Department's deployment of military 
resources in support of civil authorities exceeded, in speed and size, 
any other domestic disaster relief mission in the history of the United 
States. The ability of military forces--active duty, Reserves, and the 
National Guard--to respond quickly and effectively to an event of this 
magnitude is a testament to their readiness, agility, and 
professionalism. It is also a reflection of the resources that enable 
them to organize, train, and equip to meet the full range of DoD's 
missions. I commend the members of your committees for your continuing 
support of the Department. Without your support, U.S. military forces 
would not have been poised to respond as effectively to the devastating 
effects of Hurricanes Katrina and Rita.
    As President Bush described in his September 15 address to the 
nation:
        The [Katrina] storm involved a massive flood, a major supply 
        and security operation, and an evacuation order affecting more 
        than a million people. It was not a normal hurricane--and the 
        normal disaster relief system was not equal to it. Many of the 
        men and women of the Coast Guard, the Federal Emergency 
        Management Agency (FEMA), the United States military, the 
        National Guard, and state and local governments performed 
        skillfully under the worst conditions. Yet the system, at every 
        level of government, was not well-coordinated, and was 
        overwhelmed in the first few days.
    There is no doubt that improvements can and should be made at all 
levels of government. As a Department, we continue to capture 
observations from our response to Hurricane Katrina in order to develop 
lessons learned and improve our response the next time we are called, 
whether for a natural disaster of like magnitude or catastrophic 
terrorist attack.

DoD Responsibilities under the National Response Plan
    DoD is an important partner in the overall national effort for 
incident management and response activities. DoD resources are employed 
as part of a coordinated incident management approach among Federal, 
State, and local governments, as well as non-governmental 
organizations. Title 10, United States Code, and the National Response 
Plan (NRP), published in December 2004, define the authorities and 
responsibilities of the Department. Homeland Security Presidential 
Directive-5 (February 2003) directed the development of an NRP to 
replace the Federal Response Plan. The NRP aligned Federal coordination 
structures, capabilities, and resources into a unified, all-discipline 
and all-hazards approach to domestic incident management. The NRP 
incorporates best practices from a wide variety of incident management 
sources and disciplines, including fire, rescue, emergency management, 
law enforcement, public works, and emergency medical services.
    The Department's main contribution to the NRP is through Defense 
Support of Civil Authorities--also known as ``civil support.'' The NRP 
provides, ``When requested, and upon approval of the Secretary of 
Defense, the Department of Defense (DOD) provides Defense Support of 
Civil Authorities (DSCA) during domestic incidents.'' DoD's role in the 
NRP is contingent upon a request for assistance (RFA) from another 
Federal agency, and upon approval by the Secretary of Defense. In 
responding to requests from FEMA for Hurricane Katrina operations, for 
example, DoD acted quickly within the NRP framework. FEMA and the 
Department of Defense worked closely together to identify and refine 
requirements, allowing DoD to provide needed capabilities. In all, the 
Department acted on more than 90 Hurricane Katrina-related RFAs from 
civil authorities requiring a broad range of military capabilities. 
Some of these requests were approved verbally by Secretary Rumsfeld or 
Acting Deputy Secretary England, and were in execution when the 
approval paperwork caught up days later. The Department felt a sense of 
urgency and acted upon it, as provided for within the NRP.
    DoD is the only Federal department with supporting responsibilities 
for each of the NRP's fifteen Emergency Support Functions (ESFs). 
Additionally, DoD's U.S. Army Corps of Engineers is designated as the 
primary agency for Emergency Support Function #3, Public Works and 
Engineering, operating under separate statutory and funding authority. 
While the considerable resources of the Department make it feasible 
that DoD might be asked to contribute resources, personnel, equipment, 
or expertise in a variety of circumstances, such support is directly 
contingent on Secretary of Defense approval with the following 
exceptions:
        <bullet> As the primary agency for ESF #3, the U.S. Army Corps 
        of Engineers performs emergency support activities under 
        separate statutory and funding authority, including Public Law 
        84-99.
        <bullet> Military forces responding to an incident under a 
        commander's Immediate Response Authority as outlined in DoD 
        Directives.
        <bullet> National Guard forces in State Activity Duty or Title 
        32 status commanded by the Governor of a State or territory.
    When Federal military forces are employed in support of domestic 
civil authorities, they are under the command and control of Commander, 
U.S. Northern Command, for responses in the Continental United States, 
Alaska, the Commonwealth of Puerto Rico, U.S. Virgin Islands, and the 
District of Columbia; or Commander, U.S. Pacific Command, for Hawaii 
and U.S. territories, possessions, and protectorates in the Pacific 
region. It is important to note that the military chain of command 
always runs from the President to the Secretary of Defense to the 
relevant Combatant Commander. The Department fully supports the 
Incident Command System of the NRP's National Incident Management 
System; however, at no time does a supported Federal agency exercise 
any command and control over DoD forces.

DoD Responsibilities Under the National Response Plan's Catastrophic 
Incident Annex
    The Catastrophic Incident Annex (CIA) of the NRP provides for a 
proactive Federal response in anticipation of, or following, a 
catastrophic incident to provide critical resources on an expedited 
basis to assist State and local response efforts. The NRP defines a 
catastrophic incident as one ``that results in extraordinary levels of 
mass casualties, damage, or disruption severely affecting the 
population, infrastructure, environment, economy, national morale, and/
or government functions.'' A catastrophic incident would almost 
immediately overwhelm local or State response capacity and could 
potentially threaten national security through interruption in 
governmental operations or emergency services.
    Implementation of the NRP's CIA is the responsibility of the 
Secretary of the Department of Homeland Security. When notified by the 
Homeland Security Operations Center of such an implementation, Federal 
departments and agencies activate and deploy capabilities in accordance 
with the Catastrophic Incident Annex and commence relevant Emergency 
Support Function responsibilities. In response to a catastrophic event, 
DoD shares primary responsibility, along with the Department of Health 
and Human Services, for the patient movement functional response area.

The National Guard's Role in Catastrophic Events
    DoD uses the Total Force concept--the right forces for the right 
jobs--to execute its missions. The National Guard provides unique 
capabilities in every U.S. State, territory, and the District of 
Columbia. The National Guard is a critical component of the military's 
role in responding to catastrophic events. Today's National Guard 
serves effectively in two distinct roles. First, it is an operational 
force for military missions; and second, it stands ready to answer no-
notice calls by the President, the Secretary of Defense, or the 
Governors to respond to natural or man-made catastrophic incidents. The 
National Guard provides significant capabilities to U.S. Northern 
Command and U.S. Pacific Command, including situational awareness 
capabilities, intelligence and information feeds, chemical-biological 
weapons of mass destruction response force packages, and forward-
deployed command and control apparatuses and joint logistics bases, as 
needed.
    National Guard forces provide combatant commanders flexibility to 
tailor their response based on specific scenarios encountered in 
managing a contingency.
        <bullet> Title 10 (United States Code) Status. When National 
        Guard forces are ordered or called to active duty in a Federal 
        or Title 10 status (Federal control, Federal funding), the 
        President or the Secretary of Defense may authorize employment 
        of activated National Guard forces along with other active duty 
        forces. In this instance, the Commanders of U.S. Northern 
        Command or U.S. Pacific Command would have direct command and 
        control authority over those forces assigned for employment in 
        the Commander's area of responsibility.
        <bullet> State Active Duty Status and Title 32 (United States 
        Code) Status. National Guard forces can serve in State Active 
        Duty (State control, State funding) or in Title 32 status 
        (State control, Federal funding) under the command of a State 
        Governor. In either status, National Guard members are not 
        subject to the provisions of the Posse Comitatus Act and may 
        engage in activities related to law enforcement if authorized 
        to do so under applicable State law.
    In the event of a catastrophic incident, forces under State command 
and control, and Federal forces under U.S. Northern Command or U.S. 
Pacific Command's command and control could find themselves operating 
within a common operating area. Although they are not part of the same 
command structure, unity of effort requires coordination and 
cooperation among all of these forces toward a commonly recognized 
objective. Unity of effort is critical to a successful response to 
catastrophic events.

DoD Coordination with Interagency Partners
    The Department of Defense and the Department of Homeland Security 
(DHS) work in close coordination to ensure the safety and security of 
the U.S. homeland. Coordination and cooperation take place continuously 
at all levels of both organizations. As the Secretary of Defense's 
principal liaison with DHS, my office has worked diligently to foster 
excellent working relationships and provide relevant expertise. In that 
regard, the two Departments signed a memorandum of agreement in 2003 
that authorized the assignment of 64 DoD personnel to DHS on a detail 
basis to fill critical specialties, principally in the areas of 
communications and intelligence. Further, we established a Homeland 
Defense Coordination Office at DHS headquarters to provide for 
continuous liaison and advisory support, and we maintain a 24 hours-a-
day/7 days-a-week presence in the DHS Homeland Security Operations 
Center. As needed, DoD also provides senior military and civilian 
personnel for the DHS-led Interagency Incident Management Group--a 
group of senior Federal department and agency officials focused on 
incident response. Beyond these formalized arrangements, daily contacts 
between DoD and DHS are the norm in the course of interagency working 
group meetings and our collaboration on a range of projects and 
initiatives.

Role of DoD and Other Agency Exercises
    DoD is committed to maintaining the readiness of military forces to 
execute the full spectrum of homeland defense and civil support 
operations, including catastrophic incident response. To this end, DoD 
has hosted or participated in exercises sponsored by other government 
entities as well as our own. Homeland security and homeland defense 
exercises are important in ensuring readiness and identifying gaps and 
potential weaknesses within each agency, and across agencies, in 
responding to terrorist attacks, including potentially catastrophic 
multiple, simultaneous challenges. These exercises support the DHS 
National Homeland Security Exercise Program established by Homeland 
Security Presidential Directive-8 (HSPD-8), (``National Preparedness,'' 
December 17, 2003).
    DoD either sponsors or is a participant in no less than two major 
interagency field exercises per year, involving deployment of command 
elements as well as response units. In addition, DoD participates in 
several command and control exercises, ranging from the combatant 
command level to the national level. In the past, these have included 
U.S. Northern Command exercises UNIFIED DEFENSE (2003, 2004), ARDENT 
SENTRY (2005), DETERMINED PROMISE (2003, 2004), and VIGILANT SHIELD 
(2005). Additional exercises have included DILIGENT ENDEAVOR (2003), 
DILIGENT WARRIOR (2004), NORTHERN EDGE (2003), Scarlet Shield (2004), 
Dark Portal (2004), and the National Top Officials (TOPOFF) exercises 
(2003, 2005). Many of these exercise scenarios are designed to 
overwhelm local and State assets to the extent required to evoke a 
response under the National Response Plan, including the employment of 
DoD and other Federal assets.

DoD Contribution to Hurricane Katrina Relief Efforts
    The Department of Defense's response to the catastrophic effects of 
Hurricane Katrina was the largest military deployment within the United 
States since the Civil War. Federal military and National Guard forces 
have been employed directly in saving lives through extensive search 
and rescue, evacuation, and medical assistance.
    By any measure, the flow of military forces and relief supplies 
into the Katrina-affected areas was a massive operation. At the height 
of the DoD response, some 72,000 men and women in uniform assisted 
Federal, State, and local authorities in recovery efforts. Other 
military capabilities employed during the response included 23 ships, 
68 fixed-wing aircraft, 293 helicopters, amphibious landing craft, 
space-based imagery, night vision capabilities, port and waterway 
surveillance, mortuary teams, and large-scale construction support 
provided through the U.S. Army Corps of Engineers and U.S. Navy 
Seabees. Additionally, nine DoD installations served as logistical 
staging areas for the delivery of supplies and as sites for Federal 
Medical Shelters. Little Rock Air Force Base, Arkansas, was designated 
as the central collection point for foreign relief donations.
    Federal military and National Guard forces have been instrumental 
in saving lives, restoring order, and beginning the long, challenging 
process of recovery. Approximately 15,000 residents of the Gulf coast 
were rescued and 80,000 others evacuated. DoD delivered critical 
emergency supplies--more than 30 million meals and some 10,000 
truckloads of ice and water. Military forces also provided significant 
medical assistance, including 10,000 medical evacuations by ground and 
air, medical treatment of more than 5,000 patients, as well as support 
for disease prevention and control. Further, DoD made available more 
than 3,000 beds in field hospitals, installations, and aboard U.S. Navy 
ships. At the request of FEMA, DoD also supplied 13 mortuary teams to 
support local authorities in the systematic search, recovery, and 
disposition of the deceased. Additionally, to assist in disease 
prevention, DoD aircraft have flown mosquito abatement aerial spraying 
missions covering more than two million acres.
    The Department of Defense planned for and employed a balance of 
Active, Reserve, and National Guard capabilities in responding to 
Hurricane Katrina. In contrast to Hurricane Andrew (1992), in which 
National Guard forces constituted 24% of the military response, 
National Guard forces represented more than 70% of the military force 
for Hurricane Katrina. Even while 75,000 National Guard members are 
deployed overseas, under the leadership of Lieutenant General Blum, the 
National Guard amassed over 30,000 troops in 96 hours in response to 
Hurricane Katrina. At the height of Katrina relief efforts, the 
National Guard deployed a total of 50,000 military personnel. National 
Guardsmen from every State, territory, and the District of Columbia 
have been involved in Hurricane Katrina response operations. Further, 
National Guard Weapons of Mass Destruction--Civil Support Teams (WMD-
CSTs) from 14 states deployed to provide state-of-the-art 
communications capabilities to local authorities and assistance and 
advice on identifying and handling hazardous materials from damaged 
infrastructure.
    Participating National Guardsmen served and continue to serve in 
Title 32 status. As described earlier, while in Title 32 status, their 
respective Governors maintain command and control of their forces and 
the Department of Defense provides funding. National Guardsmen in Title 
32 status are also able to undertake law enforcement activities in 
accordance with State laws as directed by their Governor. One such 
example is the deployment of National Guard military police into New 
Orleans. When it became clear that civil order was breaking down, the 
National Guard deployed 1,400 National Guard military police into New 
Orleans each day, every day, for three days in a row, dramatically 
increasing the security presence on the streets of New Orleans. Many of 
these trained military police officers also serve as professional law 
enforcement officers in civilian life. These National Guard forces were 
able to not only backfill, but substantially expand, the total number 
of law enforcement personnel available in New Orleans and the 
surrounding parishes.

Observations on the Federal Response to Hurricane Katrina
    Typically, in responding to a major disaster, local first 
responders are the first on the scene. Immediately following local 
first responders, State emergency management officials, at the 
direction of the Governor, would normally be available to provide 
prompt augmentation capability. Disaster planning has traditionally 
assumed that the majority of personnel immediately responding to the 
scene are likely to be drawn from local and State communities, with the 
bulk of Federal follow-on capabilities arriving in force a few days 
later.
    In the case of Hurricane Katrina, this model of response simply did 
not apply. In fact, the combination of the initial hurricane strike and 
several levee breaches in New Orleans transformed local first 
responders and their families into some of the first victims. In many 
cases, police, firefighters, emergency medical service providers, and 
other essential responders were no longer mission capable.
    As with all Department of Defense operations, we have made it a 
priority to capture lessons learned from our response to Hurricane 
Katrina. We have been doing so ever since the hurricane made landfall. 
The Department has organized a comprehensive review group to support 
the White House Hurricane Katrina Task Force and to oversee 
implementation of lessons learned within DoD. Although review and 
analysis are still ongoing, let me highlight some preliminary areas, 
already identified, to improve both the overall Federal government and 
specific DoD response:
        <bullet> improving our ability to obtain timely and accurate 
        assessments of damaged areas immediately after an event;
        <bullet> examining the best way to achieve effective 
        coordination and unity of effort when multiple Federal agencies 
        converge on an affected area;
        <bullet> enhancing our ability to communicate with first 
        responders on the ground, focusing specifically on voice 
        communications;
        <bullet> integrating fully both Active Duty and Reserve 
        Components into pre-event and on-scene operational planning for 
        catastrophic events; and
        <bullet> re-examining the role of DoD in responding to a 
        catastrophic event.
    These preliminary observations, and others under review, form the 
framework for an in-depth analysis of our response to Hurricane Katrina 
and will enable DoD to better plan for the next catastrophic event.

Conclusion
    In terms of its magnitude, Hurricane Katrina constituted one of the 
most destructive natural disasters in the history of the United States. 
Accordingly, U.S. military forces executed the largest, most 
comprehensive, and most responsive civil support mission in our 
nation's history. During a domestic disaster relief operation 
unprecedented in scale, over 72,000 Federal military and National Guard 
forces flowed into the Gulf Coast region over a twelve-day period to 
assist fellow Americans in distress. The military response to Hurricane 
Katrina validated DoD's Total Force concept, which effectively 
integrates Active Duty, Reserve, and National Guard forces to meet the 
full range of military missions, including homeland defense and support 
to domestic civil authorities. Hurricane Katrina also provided a real-
world opportunity to refine further the approaches outlined in the 
National Response Plan and its Catastrophic Incident Annex--a task that 
DoD and all NRP signatories are undertaking on a priority basis.
    Mr. Chairman, I commend you and the members of these Committees for 
your leadership, interest in, and support of, the Department's homeland 
defense and civil support missions, with a particular focus today on 
the role of Federal military forces and the National Guard in disaster 
response. I look forward to any questions you may have.

    Mr. Reichert. Thank you, Mr. McHale.
    The chair now recognizes Admiral Thomas H. Collins, 
Commandant of the U.S. Coast Guard, U.S. Department of Homeland 
Security.

              STATEMENT OF ADMIRAL THOMAS COLLINS

    Admiral Collins. Good morning, Mr. Chairman, members. It is 
a pleasure to be with you to, again, as what my other 
colleagues have mentioned, focus on an incredibly important 
topic.
    As the Federal Government's maritime first responder, the 
Coast Guard's primary disaster response missions are saving 
lives in distress, ensuring survivability of our own forces for 
post-disaster response, providing security of and 
reconstituting the affected areas, ports, waterways, and 
infrastructure, responding to oil, chemical, and hazardous 
material spills, and, finally, providing support to other 
agencies.
    Coast Guard efforts before, during and after Hurricane 
Katrina were sharply focused on each one of these missions. Our 
operational results speak for themselves.
    Coast Guard men and women saved or evacuated over 32,500 
lives. We restored and maintained the safety and security of 
the maritime transportation system by addressing more than 
1,300 discrepancies to Aids to Navigation, and coordinated the 
salvage of over 3,000 damaged or sunken vessels.
    Within one week, we restored 50 percent of the affected 
Aids to Navigation and temporarily established vessel traffic 
services to affected ports and waterways.
    Most waterways critical to our nation's commerce were 
reopened in a matter of days. And with partnering agencies, we 
responded to over 1,100 releases of oil, six of those 
categorized as major spills, over 8 million gallons of crude 
oil spills.
    Importantly, even as we rush to respond to Katrina, we 
maintained the security watch around our nation's maritime 
borders.
    Notwithstanding our many significant contributions to our 
nation's hurricane emergencies, we recognize that the Coast 
Guard is just one of many agencies needed to respond in a 
coordinated way to wide-ranging and catastrophic effects of a 
large-scale natural disaster.
    As noted, the events here with Katrina give us all in the 
emergency response business, at every level of government, an 
opportunity to build on what went right and correct that which 
went wrong.
    In the spirit of moving ahead sharply on these issues, 
Secretary Chertoff, from our perspective, is right on target 
with his priorities to enhance the Department of Homeland 
Security's role as the nation's all-hazardous response agency, 
including organizational restructuring to integrate and improve 
the department's preparedness efforts, emphasis on improved 
emergency response logistics and business processes, and, 
three, enhancements to communication, information sharing, 
between first and second responders.
    From the Coast Guard's view, improved communication and 
information sharing to support the coordinated operation must 
be at the top of our collective lists.
    There are great opportunities in this areas and others for 
the Department of Homeland Security and the Department of 
Defense to work together to enhance our national capabilities.
    As a first responder, the Coast Guard is incredibly eager 
to partner, to ensure the right capabilities, competencies and 
capabilities, are brought to bear in times of crisis.
    We in the Coast Guard look forward to working with our 
colleagues within the Department of Homeland Security and the 
Department of Defense to enhance our collective preparedness 
for these incidents of national significance. America's 
citizens expect us to do this, and American citizens deserve 
nothing less.
    Thank you very much, Mr. Chairman. And I would be happy to 
take questions, if you have them.
    [The statement of Admiral Collins follows:]

              Prepared Statement of Admiral Thomas Collins

Introduction
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to address you today as we discuss the role of the military 
and National Guard in disaster response.
    As one of the nation's five military services, the Coast Guard has 
the unique capability, capacity and authority that allows it to play a 
critical role in disaster response. The Coast Guard is a first 
responder, one of very few federal first responders and the only 
national maritime first responder. Today I would like to discuss the 
Coast Guard's primary missions in disaster response, our strengths, 
limitations, and some issues that we must focus on as the nation moves 
forward in this area.

PRIMARY MISSIONS IN DISASTER RESPONSE
    The Coast Guard's primary missions in disaster response are:
    1) Saving lives in distress and survivability of our own forces for 
post-disaster response;
    2) Security and reconstitution of ports, waterways and 
infrastructure;
    3) Oil, chemical and hazardous material response, and
    4) Support to other agencies.
    As always, saving lives in distress remains our first priority. 
During Hurricane KATRINA, the first rescues were made at Port Sulphur, 
Louisiana when a HH-65 Dolphin helicopter rescued two adults and an 
infant from a roof top at 2:51 p.m. on August 29 as winds still howled 
at 60 knots. The first Coast Guard cutter was on scene early that same 
afternoon. This is noteworthy since KATRINA made landfall shortly after 
9:00 a.m. that morning.
    I should also note that in an average year, the Coast Guard saves 
5,500 lives. Within 48 hours the Coast Guard achieved half of that 
total in Louisiana and Mississippi alone. By September 14, Coast Guard 
forces had rescued 24,135 people by boat and helicopter and evacuated 
9,409 more from 11 hospitals for a total of 33,544 rescues. . 
.statistically, seven years worth of search and rescue compressed into 
a two-week period.
    In addition to search and rescue operations, the Coast Guard 
continued to flow forces into the impacted regions to restore ports and 
waterways, respond to pollution, and provide security and additional 
law enforcement throughout the region, including protection of offshore 
petrochemical platforms. KATRINA impacted 6,400 miles of shoreline. The 
Coast Guard responded to 1,380 Aids to Navigation discrepancies, 
handled 1,129 pollution cases, including seven major pollution 
incidents, and catalogued 1,000 salvage cases with more than 200 
grounded vessels and numerous offshore structures that were adrift, 
damaged, or sunk.
    Those of you who have had the opportunity to walk the ground in 
coastal Mississippi, or literally navigate the streets of New Orleans, 
know the magnitude of the challenge our men and women have faced and 
the reconstruction issues our nation will be dealing with for quite a 
while.

OUR STRENGTHS
    Coast Guard forces have several key strengths that allow a quick 
and effective response to natural disasters. That strength begins with 
our people whose dedication to response and adaptability to changing 
circumstances never ceases to fill me with pride and admiration.
    Coast Guard ships and aircraft are built to respond to a variety of 
missions without the need for extensive reconfiguration or the addition 
of special equipment. A Coast Guard cutter that was conducting 
fisheries enforcement operations in the Gulf of Mexico could quickly be 
diverted to the New Orleans area to provide aircraft command and 
control, refueling, and forward staging facilities within only a few 
hours. Coast Guard aircraft that normally perform law enforcement 
surveillance in the Pacific Ocean were immediately available to fly 
disaster relief supplies to the Gulf Coast.
    Additionally, Coast Guard forces are on station at key locations 
around the nation, many of them on short-notice recall, so they can 
respond quickly to emergent events. When a major catastrophe occurs, or 
is anticipated, we can reposition forces quickly to that area to 
optimize the response.
    It is also important to note that the Coast Guard enjoys an agile 
command and control structure, which provides operational commanders 
the authority to move forces quickly to respond to emergencies. The 
Area and District Commanders can shift and reallocate forces from one 
region to another based on levels of risk and anticipated demand. The 
Coast Guard has also developed and regularly exercises continuity of 
operations plans for relocating command and control functions out of 
harms way.
    In addition to fielding flexible, multi-mission forces and command 
and control systems, the Coast Guard also benefits from its unique mix 
of authorities, as well as extensive experience in both military and 
other interagency response organizations.
    As a military service, the Coast Guard can be a supported or 
supporting commander and our forces are frequently integrated with 
Department of Defense (DoD) services in Joint Task Force organizations. 
We regularly provide forces in support of DoD exercises, Combatant 
Commanders contingency plans, and theater security cooperation 
activities. This close cooperation at the service level allows the 
Coast Guard to integrate seamlessly with DoD forces during disaster 
response operations.
    In addition to its military role, the Coast Guard also works every 
day with other federal agencies, state and local governments, non-
governmental agencies and international organizations under its U. S. 
Code, Title 14 law enforcement and regulatory responsibilities.
    The Coast Guard is the nation' ``maritime first responder'' and has 
a leading role in executing the National Response Plan (NRP) for 
disaster situations. Our personnel are well trained and experienced in 
response operations, which makes them a sound choice to be designated 
as the Principal Federal Official and other key leadership positions in 
the NRP structure. This ability to operate concurrently in both 
military Joint Task Force and civilian NRP structures enhances unity of 
effort across response organizations and dramatically improves the 
effectiveness of disaster response and makes the Coast Guard a truly 
unique Federal agency.

OUR LIMITATIONS
    Despite the many strengths the Coast Guard brings to disaster 
response, the Service also has some limitations that must be 
considered.
    The Coast Guard is a small service. With only 39,000 personnel on 
active duty, a major natural disaster severely strains our capabilities 
and requires a delicate balancing of risk in other geographic and 
mission areas. At the peak of KATRINA operations, over 1/3 of all Coast 
Guard aviation assets were deployed to the Gulf Coast. We managed the 
impact on our nation-wide readiness posture by incurring additional 
risk throughout all 50 states. Canadian forces covered the Northwest 
Atlantic search and rescue mission in order to divert forces to the 
Gulf Coast. All aviation training was deferred until after the KATRINA 
response, and we decreased forces normally performing counter-drug, 
fisheries enforcement, and migrant interdiction operations in the 
Caribbean and Florida Straits.
    Closely related to the overall size of the Service, we have a 
limited capacity to respond to long duration events. While the Coast 
Guard is well positioned for immediate and effective first response, 
our limited ``bench strength'' makes it impossible to sustain these 
operations for an extended period of time. Plans to sustain operations 
and hand off responsibilities once a crisis has been stabilized are a 
primary consideration for Coast Guard commanders responding to natural 
disasters.
    The age and condition of the Coast Guard's assets is another 
concern, and is one that the Administration, with the support of 
Congress, is working hard to improve. Started in 2002, the Deepwater 
Acquisition program is delivering new assets that offer increased 
multi-mission capability and capacity to the Coast Guard. The 
government has also invested extensively in new forces for the Coast 
Guard since 2001, such as 13 new Maritime Safety and Security Teams, 
170 new small boats, 15 87-foor Coastal Patrol Boats, and four 179-foot 
coastal patrol craft to increase operational presence in the Nation's 
Ports.

ISSUES TO FOCUS ON GOING FORWARD
    Lastly, I would like to echo many of the recommendations Secretary 
Chertoff has highlighted in recent weeks. There are several areas that 
will require continued energy and focus in the months and years ahead 
in order to enhance our national disaster response capacity and 
capability. Katrina was certainly not our last national challenge, but 
it is incumbent on leaders throughout every level of government to 
build on what went right and correct that which went wrong.
    First, the Secretary outlined a significant re-organization within 
DHS earlier this summer, called the Second Stage Review 2SR). Even 
before Katrina. I strongly believed that 2SR moved the Department in a 
very positive direction; I believe such a reorganization is made even 
more compelling in the shadow of Katrina. The Coast Guard will be an 
active contributor to the new Preparedness Directorate that the 
Secretary has recommended, as well as the new Policy and Planning 
development entities. The Department of Homeland Security does have 
significant operational capacity at its disposal, and we must 
collectively continue to improve our arrangement and management of that 
capacity to ensure it can respond to the full spectrum of homeland 
security mission requirements. At the same time, we will do everything 
possible to continue supporting FEMA in its critical coordination and 
response role. By virtue of our mission requirements, the Coast Guard 
necessarily has extensive experience and expertise in logistics and 
communications, as well as supporting business processes.
    Second, I couldn't agree more with the Secretary that we must 
continue to focus on improving communications between first and second 
level responders in the disaster area and ensuring adequate situational 
awareness. Federal, state and local first responders could benefit from 
a common framework designed to establish minimum requirements for 
communications interoperability. Concurrently, one of the most visible 
outputs of effective communications is a common operating picture. 
There is opportunity for DHS and DoD to work together to enhance our 
national capabilities in this area. For example, the Coast Guard has 
been working hard with DHS and DoD partners to enhance maritime domain 
awareness by the development and deployment of a maritime common 
operating picture. We must continue our deliberate work to break down 
barriers and develop improved information sharing arrangements and 
hence improved situational awareness to support timely operational 
decisions.
    Third, preparedness is essential. No amount of response capacity 
and capability will be effective without a foundation of preparedness. 
Relationships between all levels of government disaster responders must 
be created and maintained before an actual event. It is too late to 
start building key relationships when a hurricane is on your doorstep. 
Advance planning and exercises, involving all potential responders, are 
a must for effective disaster response. Command and control 
arrangements must be clarified, both in theory and in practice. 
Interoperability between the Principal Federal Official (PFO) and DoD 
Joint Task Force (JTF) commanders is critical. We must keep working to 
find the appropriate mechanisms that will guarantee unity of effort. 
Some cases may require unified commands, but in all cases it will 
require a common framework among Federal, state and local partners. The 
National Incident Management System (NIMS) goes far to provide that 
framework and the additional preparedness efforts set forth by the 
President and Secretary will help us test this framework against on-
the-ground realities.

CONCLUSION
    The Coast Guard is well-positioned to respond to natural disasters 
due to its unique blend of authorities, capabilities and capacity. 
Flexible, multi-mission forces and agile command and control systems 
provide the solid foundation from which we can respond to major 
catastrophes. When combined with broad authorities and experience 
operating with diverse partners, particularly the DoD, the Coast Guard 
provides a vital service to the nation. We in the Coast Guard look 
forward to working with our colleagues in DHS and DoD to enhance our 
preparedness for incidents of national significance.
    Thank you for your consideration.

    Mr. Reichert. Thank you, Admiral Collins.
    The chair recognizes Lieutenant General Blum, chief of the 
National Guard Bureau, U.S. Department of Defense.

         STATEMENT OF LIEUTENANT GENERAL STEVEN H. BLUM

    Lieutenant General Blum. Chairman Reichert, Chairman 
Saxton, and members of the committee, thanks for the 
opportunity to talk with you this morning about the National 
Guard's role in disaster response.
    As you well know, your National Guard is no longer a 
strategic reserve. It is an operational force. We are, in fact, 
your 21st century minutemen and women, always ready, always 
there. We are the Department of Defense's first military 
responders for homeland defense and military support to 
homeland security operations in the United States of America.
    The National Guard's soldiers and airmen continue to answer 
this nation's call to duty. There are 80,000 brave citizen 
soldiers and airmen deployed in 40 nations around the world 
this morning as I address you.
    At the same time, in recent weeks, we deployed as many as 
50,000 citizen soldiers from every state and every territory 
and the District of Columbia. When you called out the Guard for 
Katrina, you called out all of America in reality.
    There is not a single National Guard entity that did not 
make a contribution of Air or Army National Guardsmen in the 
response to that disaster on the call.
    As provided by the National Response Plan, the National 
Guard provided an immediate response, which is exactly what the 
response plan intended. And as Secretary McHale said, this 
response was unprecedented in the size, and scope, and 
swiftness in military history, not only of our nation, but of 
any nation in the world.
    In resulted in over 15,000 U.S. citizens being saved by the 
National Guard response and over 78,000 U.S. citizens being 
moved from an area where they had no hope, no shelter, to an 
area where they could begin building their lives anew.
    While we have been successful in meeting the needs of the 
nation, we all recognize there is significant room for 
improvement. Bottom line: The National Guard, as the Government 
Accounting Office has testified to this Congress, before 
September 11, 2001, the National Guard had 75 percent of its 
equipment necessary in the Continental United States (CONUS) to 
these homeland defense, support the homeland security mission.
    Four years later, because of cross-leveling, which is 
correct and right, we put the best equipment in the hands of 
our soldiers that are overseas. As a result, in this 
unclassified setting, we are now below 34 percent of the 
equipment that I must have to be able to respond to future 
Katrinas, Wilmas, Ritas, or al-Qa'ida attacks on this nation.
    The National Guard's equipment shortages fall for domestic 
requirements in the following areas: satellite communications, 
tactical radios, medical equipment, military trucks, utility 
helicopters. Medical equipment and engineering equipment are 
absolutely essential needs.
    To improve our ability to respond to homeland defense and 
ensure we are able to support civil authorities for homeland 
security operations, it will take an emergency $1.3 billion to 
immediately address our equipment shortages.
    Interagency, intergovernmental relationships are absolutely 
fundamental and essential to the success of any response to a 
disaster. The National Guard, the Department of Defense, the 
Department of Homeland Security, and our partners in Northern 
Command, and our essential local, state and federal partners, 
with which we are there to support, must exercise and train 
together regularly and often, if we are going to do better in 
the future.
    Thank you. I look forward to your questions.
    [The statement of Lieutenant General Blum follows:]

        Prepared Statement of Lieutenant General H. Steven Blum

    Chairman Saxton and Chairman Reichert, members of the committee. 
Thank you for the opportunity to discuss the role of the National Guard 
in disaster response.
    Today, the National Guard finds itself more than ever linked to the 
vital interests of our nation, both here at home and around the world. 
Over 80,000 National Guard soldiers are currently deployed in support 
of operations in Iraq, Afghanistan, and dozens of other nations. At the 
same time, the men and women of the National Guard have responded 
magnificently to the catastrophic events of Hurricanes Katrina, Rita 
and Wilma here at home. Over 50,000 National Guard personnel hailing 
from every state and territory--responded to calls for support during 
this difficult period. That is more than the United States employed 
during Grenada or Panama operations.
    As the government begins the necessary process of assessing the 
effects of the hurricanes and the response to those events, the picture 
is one of laudable successes as well as areas requiring improvement.
    I am particularly proud of the timeliness and magnitude of the 
National Guard's efforts in advance of Hurricane Katrina and our 
response in its immediate aftermath. National Guard forces were in the 
water and on the streets of New Orleans rescuing people within four 
hours of Katrina's passing. More than 9,700 National Guard Soldiers and 
Airmen were in New Orleans by the thirtieth of August. The National 
Guard deployed over 30,000 additional troops within 96 hours of the 
passing of the storm.
    More than 11,000 National Guard personnel remain on active duty 
today in Louisiana alone, with over 12,500 total personnel in the five 
affected states. In short, the National Guard response to the 
catastrophic events of Hurricanes Katrina, Rita and Wilma has been and 
continues to be both timely and extensive.
    While we have been successful in meeting the needs of the warfight 
overseas, there exists room for improvement in our capability to 
respond effectively to domestic mission requirements. Resourcing 
National Guard units deploying in support of Operation Iraqi Freedom 
and Operation Enduring Freedom has reduced the equipment inventory of 
the National Guard's non-deploying units. Every effort has been made to 
ensure that our deploying units are fully equipped and ready to support 
operations anywhere in the world. So far, we have transferred over 
101,000 items of equipment in support of these missions. But these 
efforts have resulted in reduced inventories of many critical equipment 
items here at home, including trucks, radios and heavy engineering 
equipment.
    Resources earmarked in current legislation will help the National 
Guard a great deal in addressing these challenges. By working with the 
Army, the Air Force and the Congress to continue to prioritize National 
Guard equipment needs, we will be well on the path to ensuring that the 
Guard is fully prepared to fulfill its missions both at home and 
abroad.Interagency relationships are fundamental to the success of the 
federal response to any disaster, and we must continue to foster strong 
relationships with the Department of Homeland Security and U.S. 
Northern Command. Indeed, coordination efforts to date point to the 
need for better planning, procurement of more equipment and 
interoperable communications, and joint training of the National Guard, 
active duty forces, and our federal partners.
    As a full member of the national security team, the National Guard 
had met its mission requirements at home and abroad. But additional 
resourcing and better inter-governmental coordination is needed in 
order for the National Guard to be effectively postured to meet the 
needs of the future. By working closely with the Department of Defense, 
the Department of Homeland Security, and the Congress, the National 
Guard will continue to be Always Ready, Always There.
    Thank you.

    Mr. Reichert. Thank you, Lieutenant General Blum.
    And I now recognize Major General Richard Rowe.

 STATEMENT OF RICHARD ROWE, JR., DIRECTOR OF OPERATIONS, U.S. 
          NORTHERN COMMAND, U.S. DEPARTMENT OF DEFENSE

    Major General Rowe. Good morning, sir. Good morning, 
Chairman and members.
    On behalf of Admiral Keating, it is an honor to be here 
today to represent U.S. Northern Command.
    The Department of Defense has a long history of defense 
support to civilian authorities. In this operation, extending 
from the end of August, still ongoing, we are proud of the 
performance of Naval, Army, Marine, and Air Force, members from 
the active force, that operated in concert with our serving 
National Guard members, the Air and the Army National Guard, 
and the Coast Guard teammates of the uniformed force, local and 
state authorities, civilian authorities, in accordance with the 
National Response Plan.
    As a director of operations, I can tell you that our United 
States Transportation Command, Special Operations Command, 
Strategic Command, and Joint Forces Command all played valuable 
roles in supporting the active force effort.
    Northcom was fully engaged to stabilize, to reduce 
suffering, in a system recovery. We were engaged early. We met 
the storm, as it was Tropical Depression 12, well before it 
struck Florida, on 23 August, and reporting situational 
awareness updates.
    And teleconferences within the Department of Defense, with 
the National Guard, with state and local authorities, through 
the FEMA national teleconference, all started as early as the 
24th and 25th of August.
    We have been authorized by the secretary, and we were acted 
on it to deploy defense coordinating officers to each of the 
potentially impacted states ahead of storm strike.
    Defense coordinating officers are serving brigade 
commanders, colonels with a staff, and they went to locate at 
the state coordinating emergency management facilities side by 
side with the designated federal coordinating officer of FEMA.
    We were asked, and had authority very early on, to provide 
access to Department of Defense bases for operational staging 
areas. And we did so. And this provided an ability to surround 
the line of attack with logistics and supply.
    And we had been authorized by the secretary to work with 
the services and the other joint command to identify potential 
required capabilities ahead of the storm. And we did that, with 
the message on 28 August, to the joint staff and to our fellow 
joint commands, that identified potential active capabilities 
that would be needed to fill the niches in support of a 
hurricane of this extent.
    We anticipated requests at all levels, within our command. 
We co-located at the state, at the FEMA regional level, and at 
national FEMA level to support planning and thinking ahead of 
the future operations required.
    We were challenged to see the disaster area, the ability to 
assess the strike zone through Mississippi, and later, when the 
levees broke, inside the city of New Orleans, to understand the 
extent of the damage effect and exactly where specific 
capabilities might be needed, that assist us in deploying and 
employing those capabilities.
    During the period of the next 3 weeks after Katrina's 
strike, we also continued to engage with all the same players 
for anticipating Ophelia, which never did strike land on the 
East Coast, and Rita, which struck with devastating effect 
toward the end of September.
    We saw some key lessons, which we will continue to work. 
Many of those have been cited by my fellow panel members in the 
areas of communications and collaboration. I would also 
highlight reconnaissance capabilities that can be specifically 
provided from mud to space, in order to help see the strike 
zone and communicate very quickly assessment materials and to 
assist.
    We need to look at joint command and control enablers to be 
in place pre-strike. Post-strike, improve collaboration, in 
order to work in the focus efforts, and response capabilities.
    We continue at Northcom to monitor the recovery very, very 
closely. This morning, 7,000 guardsmen remain on duty in 
Louisiana, several hundred in Mississippi, continuing to work 
the aftermath of this strike. Less than 250 active forces 
remain on active duty, most of them in a combat support 
hospital inside New Orleans.
    The mission does continue, and it will continue until the 
last uniformed servicemember has done. We will continue to 
coordinate and work.
    Throughout the entire operation, we kept our eye on the 
other part of our significant mission, which is homeland 
defense. And we kept a balanced approach to make sure we had a 
daily estimate for Admiral Keating of the posture of our 
active-duty forces that could be called upon for homeland 
defense. And we were ready to provide those capabilities 
rapidly.
    Sir, I am prepared to take questions.
    [The statement of Major General Rowe follows:]

        Prepared Statement of Major General Richard J. Rowe, Jr.

    Chairmen Saxton and Reichert, Congressmen Meehan and Pascrell and 
Members of the Subcommittees:
    On behalf of Admiral Timothy J. Keating, Commander of U.S. Northern 
Command, thank you for this opportunity to discuss the role of our 
active duty forces in disaster response. My comments today will first 
focus on the actions U.S. Northern Command took to prepare for and 
respond to Hurricane Katrina. I will also discuss proposals for 
improving the Command's disaster response capabilities.
    USNORTHCOM Operations. The Department of Defense (DoD) has a long 
history of supporting civil authorities in the wake of catastrophic 
events with specialized skills and assets that can rapidly stabilize 
and improve the situation. All DoD support is provided at the direction 
of the President or Secretary of Defense and in accordance with the 
National Response Plan.
    As directed by the Secretary of Defense, U.S. Northern Command 
supported the Department of Homeland Security/Federal Emergency 
Management Agency (FEMA) disaster relief efforts. Hurricane relief was 
conducted as a team effort among Federal, state and local governments, 
as well as non-governmental organizations. USNORTHCOM was fully engaged 
in supporting the massive operation to save lives, reduce suffering and 
protect the infrastructure of our homeland.
    USNORTHCOM began tracking the tropical depression that became 
Hurricane Katrina on 23 August. Before Hurricane Katrina's landfall in 
Louisiana and Mississippi, USNORTHCOM established staging bases and 
deployed Defense Coordinating Officers and Defense Coordinating Element 
teams to Louisiana, Mississippi, Alabama, and Florida to manage DoD 
response efforts in coordination with State and Federal officials. 
These teams are normally not activated until a Presidential Disaster 
Declaration is made; however, as authorized by the Secretary of 
Defense, we deployed them early due to the magnitude of Katrina.
    In addition, we alerted forces to be prepared to move as soon as 
the situation on the ground stabilized and the Department of Homeland 
Security, through FEMA, determined what assets were needed. We 
coordinated with U.S. Transportation Command (USTRANSCOM) to provide 
heavy lift aircraft. We also worked with Joint Forces Command to 
identify available Army, Navy, Marine Corps, and Air Force units to 
perform missions such as imagery support and damage assessment, inter-
coastal waterway search and rescue, aviation medical evacuation, and 
construction/bridge/utility engineering to restore key infrastructure. 
This enabled us to identify appropriate units to perform requested 
assistance quickly and provide transportation to the scene as soon as 
possible.
    Shortly after Hurricane Katrina made landfall, we were given 
authority by the Deputy Secretary of Defense to deploy the forces we 
deemed necessary to preserve life and reduce suffering. We had not yet 
been asked by Federal agencies for these capabilities, but we wanted to 
ensure we could respond when needed. As the levees in New Orleans gave 
way and the magnitude of the disaster grew, we continued to lean 
forward by preparing and moving additional capabilities, including 
emergency medical teams and communications experts.
    In anticipation of the significant role the Department of Defense 
could play in the rescue and recovery efforts, USNORTHCOM established 
Joint Task Force Katrina (JTF-Katrina). Led by Lieutenant General Russ 
Honore (Commander, First Army), JTF-Katrina provided command and 
control of Title 10 assets deployed to save lives, mitigate suffering, 
and restore critical services. JTF-Katrina grew to include 24,500 
active duty forces, over 200 fixed and rotary wing aircraft, and 20 
ships at its peak. General Honore and his staff provided pivotal 
leadership on the ground and did a superb job providing Department of 
Defense assistance in coordination with state National Guard Forces and 
other Federal, State, local, and non-governmental partners.
    USNORTHCOM met every request for support received from FEMA. In 
support of the relief effort, Department of Defense forces conducted 
search and rescue operations, assisted with evacuations, organized a 
complex logistical system to deliver food, water, and other essential 
supplies, provided medical care, provided imagery support, conducted 
fire fighting and mosquito abatement missions, cleared debris, safely 
managed crowded airspace and assisted with mortuary affairs.
    Throughout the operation, we worked with our interagency partners 
through on-site liaison officers who provided a daily assessment of 
anticipated requests for military support. In addition, we shared 
information through teleconferences with Joint Task Forces Katrina, 
Defense Coordinating Officers, FEMA and other interagency 
organizations, and the Secretary of Defense.
    Relationships and lessons learned from Hurricane Katrina relief 
operations were extremely valuable in facilitating our response to 
Hurricane Rita. USNORTHCOM worked with FEMA to define requirements 
early and responded by ensuring Title 10 forces, imagery support, and 
search and rescue assets were in place ahead of the storm, helping to 
mitigate additional suffering.
    Lessons Learned. We are actively involved in efforts to compile 
lessons learned and incorporate them into future operations. One very 
important lesson we learned pertains to unity of effort.
    We all witnessed the employment of 50,000 National Guardsmen in 
Title 32 status along with 22,500 active duty (Title 10) troops. But 
due to various factors, we enjoyed less than comprehensive command and 
control throughout disaster relief operations.
    Commanding, directing and coordinating the efforts of over 70,000 
troops present many challenges under any circumstances. While we 
embrace the fact that the National Guard will play a pivotal role in 
all disasters, the nation should have the capability to properly 
leverage [HSC] active duty forces that have the inherent structure and 
capacity to achieve unity of effort when assembling and directing a 
large-scale, multi-state response to a catastrophic event.
    If a tragedy occurs on a local level, it makes sense that the local 
and/or state leadership retain command and control. They know the 
terrain, they have the personal relationships with responders, and they 
are familiar with the most likely challenges. However, DoD capabilities 
can prove extremely helpful in mitigating a disaster when local and 
state responders are overwhelmed, consequences are grave, and the scope 
of the suffering and the casualties is extensive. We are prepared to 
respond as directed by the President or Secretary of Defense.
    [HSC] Another lesson learned from our response to Hurricane Katrina 
relates to communications. We need immediate, reliable communications 
that are survivable and flexible. These communications must be mobile, 
secure and both voice and data capable.
    The National Response Plan remains a solid framework for responses 
to crises on a certain scale, but there is room for improvement. [HSC]
    Conclusion. Our experience demonstrated we have adequate capability 
to meet emerging homeland defense and civil support crises. Even as we 
act to support civil authorities in responding to natural disasters, we 
never lose focus on our primary mission of homeland defense. One fact 
remains constant--our enemies should make no mistake about our resolve 
or our capabilities.

    Mr. Reichert. Thank you, Major General Rowe.
    At this time, the chair will have the opportunity to ask a 
few questions. But first, I have a comment or two I would like 
to make.
    I often have flashbacks, as the sheriff in Seattle, sitting 
in your chair, in front of a group called the King County 
Council. And shortly after, World Trade Organization (WTO), 
similar questions were asked of us. Where did you fail? And 
what lessons did you learn during that event?
    So I think a lot of us understand your time and appreciate 
your presence here today, in making yourselves available to 
answer questions. Many of us on the committees represented 
today have had the opportunity to visit New Orleans, Biloxi, 
Waveland, Mississippi, about 12 miles inland, and have seen for 
ourselves the destruction that has taken place there as a 
result of Katrina.
    We have also, some of us, have had the opportunity to visit 
Houston and visit with the leaders there, in Beaumont, Texas, 
and the surrounding areas. So we have seen first-hand the 
results of Katrina's effects and how the local government, I 
think, too, the federal agencies, learned from Katrina.
    I am going to assume that, before Katrina, the Department 
of Defense has been involved in assisting in serious 
catastrophes that have arrived at our shores in the past.
    And there has been efforts to integrate your resources and 
work together, so when Katrina hit this was not an unexpected 
partnership that needed to take place. So there were some 
things in place that you have already been used to using, and 
plans, and some training together.
    One of the questions that weighs heavily on the minds of 
the people of America and on the people of this committee, I 
think, is why, then, if there were these previous opportunities 
to partnership, and these previous plans, and previous 
trainings that have occurred, why was our response so slow to 
Katrina?
    Anyone on the panel wish to--
    Mr. McHale. Mr. Chairman, I can only address the military 
portion of the response. And as I indicated in my opening 
statement, the military response was very fast.
    It was unprecedented by comparison to any other remotely 
comparable event in American history. As a rough gauge, it was 
twice as fast and twice as large as our response to the 1992 
Hurricane Andrew. We delivered forces in greater number, with 
greater capabilities, beyond anything we had ever done before, 
and faster than we had ever done before.
    And we did that because it was obvious that there was an 
urgent need to save lives and protect property, and that DOD 
would be expected to exceed any past level of performance.
    And so, at least in terms of the military piece, I guess 
the summary I would give to you is we moved very quickly, and 
we now recognize the obligation in a future event to move even 
more quickly with even greater resources.
    Mr. Reichert. I think there is at least a perception that 
there was a slow response. And was there communication that was 
occurring between the Department of Defense, National Guard, 
Coast Guard, FEMA, the Red Cross, and all those others?
    We have heard testimony from all of those agencies in 
previous hearings. Were you in communication with FEMA before?
    Mr. Jackson. I will let DOD address this, as well. But we 
absolutely were, as General Rowe stated. From the very first 
days when this became a tropical depression and was on our 
radar screen, we began the coordination with the Defense 
Department.
    They participated in the command center at FEMA and had a 
senior representative to manage liaison activities. And they 
participated in the secure videos and the other video 
conferences that we use to manage these events and to plan for 
these events.
    So there was significant cooperation and sharing of plans 
on the types of assets that would be pre-staged into the area 
for use after landfall.
    Mr. Reichert. Just one more follow-up comment and question. 
Some of the testimony that I heard this morning, that we have 
heard this morning, were comments made about the response was 
not well-integrated, that there was not communication that was 
needed to really coordinate an integrated response.
    So, if there was communication beforehand, as you just 
responded, what needs to be improved, then, to make the 
communication clearer, quicker, faster, so that there is an 
integrated response to an event like Katrina or Rita in the 
future?
    Mr. McHale. Mr. Chairman, as Secretary Jackson indicated, 
there was close, continuous communication between the 
Department of Homeland Security and the Department of Defense 
well before Hurricane Katrina made landfall on August 29th.
    Ten days earlier, on August the 19th, before anyone 
anticipated Hurricane Katrina, but at a time when we did 
anticipate the hurricane season, the Secretary of Defense 
signed a standing execute order for severe weather.
    That execute order gave certain authorities to the 
combatant commander, Admiral Keating, to coordinate with FEMA, 
in order to identify DOD bases that might be used as staging 
areas for FEMA and other assistance that we might provide, 
including defense coordinating officers, to ensure that the 
Department of Defense and the Department of Homeland Security 
would be working collaboratively.
    Now, we did not expect when the secretary signed that on 
August the 19th that, a little over a week later, that execute 
order would be implemented as it was in advance of landfall of 
Hurricane Katrina.
    On August 23rd, when Katrina was still a tropical 
depression, tropical storm off the coast of Florida, I directed 
members of my staff to do a complete inventory of the resources 
that we had within the Department of Defense that we could make 
available to FEMA, in the event that tropical storm became more 
severe, as it did.
    We conducted that inventory. We reviewed the Meal, Ready to 
Eat (MREs) that we had available, the surge medical capability, 
other logistic support, the bases that we might provide.
    We did all that within the template of the four hurricanes 
that we had supported within Florida last year during 
approximately a five-to six-week period of time. And then we 
passed all that information to the Department of Homeland 
Security.
    The challenge in communication was not the staff 
communication of the type that I described. We were in close 
daily communication.
    The communication challenge that I described, the lack of 
interoperability, has to do with the tactical communication on 
the ground between first responders, the National Guard, and 
active-duty military personnel, largely because we have very 
different equipment.
    A police officer is likely to be carrying a handheld 
Motorola. An active-duty military officer is very likely to be 
communicating on a secure single channel ground and airborne 
radio system (SINCGARS) radio. Those two radios cannot easily 
talk to one another.
    And so, when I described in my opening statement a change 
of interoperability, we need to develop the technology--and we 
do have it--and deploy the technology much more effectively, so 
that a police officer can talk to a National Guardsman, who, in 
turn, can speak to an active-duty military officer, with 
interoperability of communications at the tactical level. That 
is where the challenge was.
    Mr. Reichert. I thank you.
    And, sir, did you have--
    Lieutenant General Blum. Yes, sir, Mr. Chairman. I would 
like to add some further clarification, if I might.
    If I could direct everybody's attention to the chart to 
your right front. You can see a time line across the bottom. 
And then you can see a build-up of the forces.
    And you can notice that the Governors of the states of 
Louisiana, Mississippi, Alabama and Florida already had 2,000 
citizen soldiers harbored in place, getting ready to respond to 
the hurricane, 4 days before it made landfall in Louisiana.
    And as the hurricane was building strength out over the 
Gulf, we were building strength of the forces and had 8,000 
National Guardsmen in place, sheltered in place along the 
Mississippi, Alabama and Louisiana coast, because we were not 
exactly sure where it would hit, and you do not want to be 
exactly where it hits, either.
    So you need to be close enough to respond, but not exactly 
on ground zero when it happens. And that model, with 8,000 
soldiers, was built on Camille, 1969, the largest hurricane 
ever to hit the Gulf Coast. And our response then, at its peak, 
required 8,000.
    So we felt that was a prudent preset. And certainly, they 
were not late, because they were there pre-event.
    And then, as the event happened, and the situational 
awareness became clear, in other words, the devastation, that 
the amount--it is 80,000 square miles that we are talking 
about. We are talking about the size of the United Kingdom.
    People lose sight of that, that having gone down there and 
seen how much devastation it really is.
    And so when we looked at that, and the two Adjutants 
General of the most affected states, which was Louisiana and 
Mississippi, called me on the morning at 7:21 and said, ``This 
is what we are facing; we need even more,'' we already had 
10,000 more soldiers coming through a previously existing--you 
asked about previously existing agreements--this is a 
previously existing agreement at the state level.
    Amongst the Governors of our great nation, since September 
11, 2001, every Governor in this country, and even our states 
and territories, has signed an emergency management assistance 
compact that allows them to flow their National Guard forces 
from state to state, equipment from state to state, and to put 
those troops that have from the donor states to the receiving 
state, under the command and control of the Governor of the 
state that is affected.
    And we moved in--as you can see, we have pressed it 11,000. 
And we grew to ultimately 50,000, in the period of 4 1/2 days. 
There is not a force on Earth that can move people any faster 
or more efficiently than that.
    And you could not put more in there, or you could not have 
pushed them full the funnel of the restricted lines of 
communication. Bridges were out, roads were out, airfields were 
out. They had to be cleared. The bridges had to be cleared.
    The highways had to be clear of debris, so you could even 
bring in--you had to literally fight your win to the recovery 
effort, for those that were not already there in place. And 
within 36 hours, you had 133 National Guard helicopters on 
site.
    That is as fast as it can be done. Now, the Coast Guard was 
even faster, because they flew in conditions, frankly, that our 
helicopters are not authorized to fly safely in. It has to get 
less than 30 knots for us to load up 20, and 30, and often 40 
people in an aircraft that is designed to hold 14 in an 
emergency condition.
    That is what we did. We had one wheel on the top of a 
building, and took the seats out of the aircraft, and loaded 35 
and 40 people in there. And we evacuated, we saved 15,000 
people through that and, later, subsequently, moved 78,000 
more.
    So the issue is not really the National Guard response or 
the military response, because we are part of the military. We 
just happen to be part of the Department of Defense that 
responds first, because we are forward deployed all across the 
landscape of this nation.
    We have situation awareness. We had the relationships that 
you talked about that have to be there. We know who the sheriff 
is, and we know what they have and what they do not have. And 
they know what we have and do not have; it is very useful.
    And then, when the President came down there and surveyed 
the scene on the 2nd of September, he thought it would be 
useful to bring in additional ground forces, federal ground 
forces.
    So there was not a problem there. It was a parallel effort; 
there was still unity of effort. And, frankly, we were good, 
but I cannot walk on water.
    So we had to leverage the Coast Guard and the Navy. And we 
only can get through Northern Command. And Northern Command was 
in continuous communication with the National Guard Bureau.
    They were not surprised by what we were doing. They had 
full disclosure on what we were doing. They would like to 
probably have had more disclosure and detail on what we were 
doing, but they were not surprised that we had 50,000 people 
responding to the area.
    And they brought in ships. And they brought in amphibious 
vehicles that only the Marines had in the area. And, frankly, 
some of my soldiers were able to go around through Saint 
Bernard's Parish and do the good work that they did, through 
the good graces of the United States Marine Corps.
    So it was a joint effort. It was a collaborative effort. It 
was a magnificent effort. And what we were there to do was 
support the civil authorities, the Governors of Louisiana, and 
the Governors of Mississippi, and all of the state, local and 
federal agencies that the President, the federal agencies, that 
the president sent in there to help their Governors.
    So there was, in fact, unity of command. The commander was 
the Governor--
    Mr. Reichert. Thank you, General.
    Lieutenant General Blum. --in Louisiana and Mississippi.
    Mr. Reichert. I am trying to be as polite as I can, and I 
can feel my members in the committee getting a little bit 
anxious. I appreciate your energy, and your emotion, and your 
thorough answer.
    But let's give the other members a chance to ask questions.
    So I recognize Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    And, General Blum, it is really an honor to have you here, 
to cut through the red tape and get to what the answers are. 
And I do not expect anything less from the National Guard.
    Mr. Chairman, with your permission, and with the permission 
of Chairman Saxton, I just want to yield very briefly, because 
of schedule problems, to Congressman Langevin in Rhode Island.
    Thank you.
    Mr. Langevin. I thank my colleague for yielding. I have to 
leave for an 11 a.m. meeting. I hope to be back before the end 
of this hearing for additional questions.
    But let me begin by asking this. First of all, I have the 
privilege on serving on both the House Armed Services 
Committee, as well as the Homeland Security Committee.
    So much of the work that I deal with in the Capitol here 
deals with national security issues, and I have great respect 
for both our homeland security officials, whether it is state, 
or local, or federal officials, as well as the professionalism 
of our military.
    And on both sides, they want to make sure that all have the 
resources to do their jobs in order to keep the American people 
safe.
    I am concerned, though, when we are talking about mixing 
the two and expanding the role of the military, especially with 
respect to engaging in civil or law enforcement activities, on 
a routine basis. That concerns me.
    And we have a Posse Comitatus statute, which clearly 
strikes a balance and is cautious about allowing expanded use 
of the military domestically.
    I note that the Posse Comitatus statute does not apply when 
the President is using his inherent emergency powers, or when 
the Insurrection Act applies, or the use of the Coast Guard for 
enforcing federal maritime laws, or when it is the assertion of 
the immediate response authority by the President.
    That being said, and in addition to talking about expanding 
the role of the military for catastrophic events--and this 
question I will pose to Secretary McHale--some are suggesting 
that, in addition to using the military to respond to 
catastrophic events, they should also be used to supplement law 
enforcement agents along the U.S. border, working in the rural 
areas to militarize the border.
    And so, Secretary McHale, and I think also General Rowe, it 
would be perfect for you to comment. What is the military's 
position on this idea?
    Mr. McHale. Congressman, if I can touch on a couple of the 
issues that you raised, as discrete parts of your question, 
there are more than 50 major disasters declared under the 
Stafford Act each year. Those are the kinds of recurring 
hurricanes and tornadoes that result in a presidential 
declaration that provides assistance, usually to a part of a 
state, several counties or multiple counties within a state.
    The discussion that we are having today does not really 
focus upon DOD's role with regard to major disasters. That role 
is defined by the National Response Plan, and I think 
historically has worked pretty well.
    The challenge is when you have got something bigger, when 
you have got a catastrophic event of the type that Hurricane 
Katrina was or, perhaps, an attack by terrorists, involving a 
weapon of mass destruction, where the local or even regional 
community is devastated, where the first responder community no 
longer exists as a functional entity.
    Under that circumstance, where an entire region may have 
experienced a devastating event, what should be the role of the 
Department of Defense in providing the most effective relief 
that we can marshal as a nation?
    And the issues then relate to logistics, leadership under 
the National Response Plan, and questions of Posse Comitatus, 
as noted by Congressman Langevin.
    The Department of Defense has taken the position that we 
are not advocating changes in the Posse Comitatus statute, 
although Senator Warner and others have indicated an interest 
in reviewing that statue. And we have pledged our cooperation.
    Perhaps the terminology of the statute needs to be updated. 
But most, if not all, DOD missions that we envision can be 
executed in conformity with the existing language of the Posse 
Comitatus statute.
    Lastly, with regard to border security, I was a member of 
the House Armed Services Committee back in the mid-1990s when 
we did militarize our border, specifically the border between 
Texas and Mexico. And we had active-duty United States Marines 
deployed along that border.
    An incident occurred in which a young, armed Mexican man 
was shot and killed by active-duty United States Marines. And 
after that event, I think by consensus, or near consensus, a 
decision was made not to militarize the border, but to 
recognize instead that border security is primarily a civilian 
law enforcement mission.
    Consistent with that, there are statutes, particularly in 
the area of counter-narcotics activity, and more recently in 
the area of counterterrorism activity, that authorize the 
Department of Defense to provide support to civilian law 
enforcement in securing our land borders.
    We support those statutes. And, in fact, we routinely 
deploy forces, particularly along the southwest border, but 
last winter along the Canadian border, in order to ensure that 
we make available to civilian law enforcement, in their lead, 
the resources that are available from the Department of 
Defense.
    Mr. Langevin. So you are suggesting you are not in favor of 
turning the security of the borders over to the military, but 
the military would continue to play a supporting role to the 
civilian authority?
    Mr. McHale. That is the role that we have played for 10 
years, and I have heard no advocacy anywhere within the 
Department of Defense that would change that responsibility, 
other than the scope of support that we would provide to 
civilian law enforcement.
    Congress passed a statute last year that recognized that 
Joint Task Force North, JTF-North, which used to be the old 
JTF-6, down in El Paso, Texas, would have a counterterrorism, 
as well as a counter-narcotics mission.
    And that change in the law, which allows JTF-North to 
support civilian law enforcement, has resulted in substantial 
and unprecedented deployment of DOD forces for counterterrorism 
missions, in support of civilian law enforcement.
    But other than that change, we have not advocated--nor did 
we even advocate that change--in terms of existing law. We are 
in a supporting role.
    Mr. Langevin. General Rowe, do you care to comment?
    Major General Rowe. Sir, I merely indicate, we at Northcom, 
we do not have any difficulty with the Posse Comitatus rule 
set.
    And for the deployment of our servicemembers, we are able 
to take appropriate force protection actions and provide them 
rules that allow them to be safe and effective.
    I think it is significant when the concern becomes the 
deployment of an active-duty capability, such as the division-
ready brigade of the 82nd Second Brigade, 1st Combat Avaition 
Brigade (CAB) division, and the Marines that deployed from both 
our east and west coast, at the President's request.
    What did that mean? It is instrumental to realize that, 
when the first C-17s arrived at the New Orleans International 
Airport, the sergeant major who had traveled with them had the 
airborne paratroopers get out their trash bags and walk among 
the people that were at the New Orleans International Airport, 
pick up trash, and, all of a sudden, it brought a great deal of 
order and discipline to that airport.
    They then deployed in on the 4th of September, in 
increasing numbers, into the city of New Orleans, where they 
worked shoulder-to-shoulder with our National Guard.
    Major General Bill Caldwell, who is the commander of the 
82nd Airborne, he showed you his diagram of the outline of the 
city. You will see in that 45th Brigade of Oklahoma.
    Mr. Reichert. Thank you, Mr. Langevin.
    Mr. Langevin. I yield back to the gentleman.
    I thank the gentlemen at the table for their comments.
    And I thank the gentleman from New Jersey for yielding.
    Mr. Reichert. Mr. Pascrell?
    Mr. Pascrell. Thank you.
    Major General Rowe, thank you for your service to your 
country. We are proud of you.
    I have a few questions. You say on page two of your 
testimony that the U.S. Northcom began tracking the tropical 
depression that became Hurricane Katrina on August the 23rd.
    Before the landfall in Louisiana and Mississippi, Northcom 
established staging bases and deployed defense coordinating 
officers and defense coordinating element, et cetera.
    Then you said that these teams are normally not activated 
until a presidential disaster declaration is made. However, as 
authorized by the Secretary of Defense, we deployed them 
earlier due to the magnitude of Katrina.
    Now, if that is the case, on page three of your testimony 
you say, ``Shortly after Hurricane Katrina made landfall, we 
were given authority by the Deputy Secretary of Defense to 
deploy the forces we deemed necessary to preserve life and 
reduce suffering. We had not yet been asked by federal agencies 
for these capabilities, but we wanted to ensure we could 
respond when needed.''
    I am trying to understand this to the best of my ability, 
because I know that the services have been used as a political 
football. Not your fault. It is either our fault or folks down 
the street.
    And I want you to explain what that means. Where does the 
authority rest? Because you said very specifically you acted 
without the authority. So clear up my confusion.
    Major General Rowe. Sir, we had the ability to work within 
our existing authorities to bring forces to a readiness to 
deploy. So, for example, at Norfolk, an amphibious readiness 
group and a carrier prepared to get underway. In Baltimore, the 
T3United States Naval Ship Comfort T1 prepared to get underway.
    We engaged with Transportation Command, Special Operations 
Command, and Strategic Command to get strategic lift 
capabilities, special operations, riverine capabilities, and 
appropriate space communications capabilities ready to go.
    At the point each of those deployed, the Department of 
Defense and the joint staff had worked in the inner-agency to 
ensure that we had the appropriate authority to act.
    Mr. Pascrell. I mean, you do understand why we could be 
confused about looking, and reading, or listening to your 
testimony on this, and listening to the administration explain 
where the authority rests?
    So, in other words, when we see an emergency, if we are 
able to prepare for an emergency, we realize that, if 
terrorists attack, we are not going to have any preparation, 
for the most part.
    But if we are waiting for an emergency, and we had 7 or 8 
days to prepare for this emergency, there is no necessary need 
for a declaration by the President for you to move, be 
mobilized, and be ready, correct?
    Mr. Reichert. General, before you answer, could you speak 
closer to the mike please? We are having trouble hearing. Thank 
you.
    Major General Rowe. Sir, as I understand the question, I 
would have to take that for the record, to work the lines of 
exactly when we have what authority.
    Mr. Pascrell. Okay.
    Major General Rowe. We leaned as far forward as we could.
    Mr. McHale. Mr. Pascrell, I am prepared to address that, if 
you would like me to?
    Mr. Pascrell. Sure, Mr. Secretary.
    Mr. McHale. The fundamental document that guides all of our 
federal agencies in responding to major disasters or 
catastrophic events is the National Response Plan.
    The NRP was published last year. And it defines the roles 
for the Department of Defense in our relationship with all 
other federal agencies, but most especially the lead federal 
agency, the Department of Homeland Security.
    And the way the National Response Plan is written, based 
upon the preexisting document, the Federal Response Plan, that 
goes back over many decades, the concept is that, when 
something really bad happens, if we have a major disaster, the 
president will make a declaration of a major disaster, upon 
request by the Governor, and then the system is designed to be 
based upon a poll of DOD resources, upon request by the lead 
federal agency, which is typically FEMA.
    In this case, we knew that this was going to be a 
catastrophic event. And we leaned into the mission. We had a 
sense of urgency. We took risk.
    We began deploying resources before anybody asked for those 
resources. The Deputy Secretary of Defense, Acting Deputy 
Secretary of Defense, who was also the Secretary of the Navy, 
for instance, began moving ships with their resources, to 
include medical and helicopter resources, before we received 
any request under the National Response Plan.
    So what the General is saying is that the Department of 
Defense, with a sense of urgency, anticipated the request that 
would ultimately come from FEMA.
    And in anticipation of those requests, in a manner, 
frankly, that I think this committee would have wanted us to 
do, we started pushing those resources forward. And then, when 
the request came in, those resources were already in place.
    Mr. Pascrell. Well, Mr. Secretary, thank you for your 
response.
    Thank you, General, for your response.
    But I must say this: Then there was no need for anyone in 
the administration to say, ``We were waiting to be asked by the 
mayor or the Governor.'' This needs clarification.
    This is not time for blame. I am not talking about blame. I 
am going to the very center of the issue.
    Based upon what you have testified to, General Rowe 
testified to, there is absolutely nothing preventing the 
Federal Government and its forces to be on hand before and 
acting before, as you have just stated you were.
    You were not asked by the Governor to do that. You were not 
asked by the mayor to do that. You were not asked by the 
chairman to do that. You did it because you are smart and you 
know how to deal with things beforehand.
    This is the point of clarity. That is why I have asked 
those questions. I got many more questions to ask you, but we 
will move on.
    Thank you very much for both of your answers.
    Mr. Reichert. Thank you, Mr. Pascrell.
    The chairman will recognize other members for questions 
that they may wish to ask. So there is no confusion, I plan to 
recognize members who were present at the start of the hearing 
by seniority. Those coming in later will be recognized in the 
order of their arrival.
    We are going to stick now strictly to the 5-minute rule, 
for those members that have not asked questions yet. I am told 
we have votes, possibly at noon, so I will now recognize 
Chairman Saxton.
    Mr. Saxton. Secretary McHale, I would just like to offer 
you the opportunity to elaborate on, perhaps, the subject that 
you had just begun to discuss.
    We have heard the term catastrophic event. We have seen 
several catastrophic events in the last several years.
    When a catastrophic event occurs, can you just elaborate 
for us on how the National Response Plan and the DOD joint 
strategy for homeland security treat a catastrophic event? And 
how does the local and federal response dovetail together?
    Just talk us through this process, if you would.
    Mr. McHale. As I indicated to Congressman Pascrell, the 
fundamental document that organizes and integrates the federal 
response is the National Response Plan.
    Under the National Response Plan, new authority has been 
granted--and I would invite Secretary Jackson to comment upon 
this--new authority has been granted to the Secretary of the 
Department of Homeland Security to identify and declare an 
incident of national significance.
    That category did not exist under the old federal response 
plan. And in my judgment, it provides an opportunity, and was 
intended to provide an opportunity, for an earlier engagement 
of DOD resources in support of the Department of Homeland 
Security.
    We, frankly, anticipate that, when a catastrophic event is 
approaching, the secretary of the Department of Homeland 
Security will look at the facts and declare an incident of 
national significance.
    And so, at an earlier point in time than historically has 
been the case, we would expect to begin receiving what the 
Department of Homeland Security calls mission assignments. We 
call them requests for assistance.
    They would start coming to us earlier on for assistance. 
And that support would begin to flow in advance of the event. 
We would not be delayed by the occurrence of the event or a 
subsequent presidential declaration.
    When something bad does happen, we anticipate that the 
National Response Plan will cause the Governor to request a 
major disaster declaration from the president. And then, at 
that point, FEMA, almost assuredly, will begin sending to the 
Department of Defense request for assistance. That is the way 
it has worked historically.
    And so the model is the National Response Plan. It is 
normally based on DHS request DOD assets. But in this case, to 
come back to Mr. Pascrell's question, we anticipated that a 
Category 5 hurricane, which came ashore as a Category 4 
hurricane, was going to produce a devastating effect.
    And so, in anticipation of the kinds of formal requests 
that would later come in under the National Response Plan, we 
began moving. No one waited in the Department of Defense.
    The guidance given to me by my superiors, the guidance that 
was communicated by me to others was, ``Let's get moving.''
    We faced an immediate challenge. We knew that DOD resources 
would have to be engaged. And wanted to move those resources 
forward with offensive urgency so that, when DHS came to us for 
assistance, we would be prepared to move.
    And we believe that the statistics are undeniable that the 
forward movement of DOD resources was unprecedented in its 
speed and scope.
    Mr. Saxton. Secretary Jackson, Secretary McHale just 
indicated that his role, DOD's role, is to respond to your 
requests. Walk us through your process.
    Mr. Jackson. Yes, sir, happy to.
    The weekend before this hurricane made landfall, the 
Governors requested the emergency declaration that Secretary 
McHale spoke of. And, in fact, the President did that weekend 
prior to landfall put in place those emergency declarations.
    So they were on the table, providing the authority and 
creating an explicit recognition of national significance. So 
we were able, actually, to begin to make mission assignments 
prior to landfall in sync with what DOD had done to surge 
assets in preparedness for this event.
    We take those mission requests from the state and local 
officials. We then assess who the right entity would be to 
implement those. And mission assignments went all across the 
federal government, and also into the private sector.
    And, therefore, we pushed out to Defense Department those 
mission assignments. Requests for assistance is the formal 
legal mechanism that we use.
    It is not very bureaucratic. It happens very quick. We have 
our teams co-located. And I will tell you that DOD has learned 
very well to help coach us to write together those mission 
assignments so that we can make sure that the assets are 
positioned as quickly as possible.
    Mr. Saxton. My time has expired. I hope that one of the 
questioners that follow me will get into what happens if you do 
not have the appropriate knowledge than an event is going to 
occur.
    Mr. Jackson. Yes, sir.
    Mr. Reichert. The chair now recognizes Mr. Simmons, who was 
next to arrive at the hearing.
    Mr. Simmons. Thank you, Mr. Chairman.
    And I thank all of our witnesses for their excellent 
testimony. I am particularly gratified that we have two fine 
Army officers at the table. And as a retired Army officer, it 
gives me great faith and comfort to hear their testimony.
    Of course, the Commandant of the Coast Guard, Admiral 
Collins, the Coast Guard Academy is in my district. And they 
are always prepared, semper paratus.
    They did a fabulous job. And if you look at the numbers, I 
mean, logistically, with my background and interest in military 
affairs, whether it is Roman legions or whatever, getting their 
firstest with the mostest is critically important. And the 
logistics of this operation is just extraordinary.
    That being said, I am a believer in Posse Comitatus. I do 
not want the military doing domestically within the United 
States things that they are not supposed to be doing and that 
the civilian authority does not want them to do. So I think 
that it is a difficult but a fine line that we have to follow.
    My interest is in the comments made about situational 
awareness. And I believe, General Rowe, you made reference to 
teleconferences. You made reference to reconnaissance, a 
satellite and other types of reconnaissance. And in your 
written testimony, you talked about imagery support.
    My sense was that one of the biggest problems was 
information operations and sharing with the American people 
just what you were doing. That, in actual fact, the media was 
running around with a cameraman and a microphone talking to 
people, and some of what they were collecting and distributing 
was very distressing to me and to other Americans watching 
this.
    But, except for General Honore, and except for a few other 
cases, we did not have a clear sense of the situation from your 
perspective. We were not controlling our information 
operations.
    And let me bring up two images here that were not collected 
through national technical means, that were available within 
hours of the incident, that showed, in this particular 
instance, the Astrodome, I believe, before and after, the race 
track, before and after. The other one shows the levees that 
were broken.
    All of this is from Digital Globe, which is an open-source 
of overhead imagery, which is virtually real-time, which could 
be shared with the American people to give them an hour-by-hour 
assessment of what the problem is, where the people are going, 
what the military is doing, what the Coast Guard is doing.
    Certainly, your cameras on your helicopters were terrific. 
But, you know, this would provide you the opportunity to manage 
the information so that we were not dependent on some cases on 
erroneous information collected by the media, perhaps with good 
intent, but nonetheless distorting the overall picture.
    And so my question goes to, how do we manage information 
operations, when it comes to these sorts of things? Even if you 
are working with classified information, you have access to 
open source of this nature and other types.
    How can we better manage our presentation of what we are 
doing in a crisis like this?
    Anybody who wants to answer, feel free.
    Mr. McHale. Congressman, in 1992, after Hurricane Andrew, 
Government Accountability Office (GAO) did a pretty thorough 
report on the response to Hurricane Andrew. And in that report, 
it was noted that the initial damage assessment immediately 
following Hurricane Andrew were almost universally inaccurate.
    In the first 24 to 48 hours after Hurricane Andrew, the 
full extent of the damage was not well-known. We did not learn 
from that experience. In Hurricane Katrina, a similar 
occurrence took place in the first 24 to 48 hours after Katrina 
made landfall.
    You noted certain aerial images of the New Orleans area. In 
fact, imagery of that type would have been very helpful in 
order to more rapidly and accurately assess the devastation 
along the Mississippi Gulf Coast.
    The media coverage early on tended to focus on New Orleans. 
Much less coverage was provided with regard to the Mississippi 
Gulf Coast, where utter devastation had taken place.
    We learned from that experience. And so, about a month 
after Hurricane Katrina, when we were preparing for Hurricane 
Rita, a very detailed ISR plan, intelligence, surveillance, 
reconnaissance plan, was developed, so that, using DOD assets, 
we would be able to get imagery equal to or even better than 
the type you have just provided.
    That plan--General Rowe may want to comment--included P-3s, 
C-130 aircraft, Predators, high-altitude and space-based 
imagery, so that, in preparation for Rita, we were not 
dependent upon open-source media.
    We had our own collection capabilities for wide-area 
surveillance so that we would be able to more quickly and 
accurately assess the damage.
    And, finally, when disasters occurred not long after that, 
in Pakistan and Guatemala, at the direction of the Secretary of 
Defense, we conveyed to Pakistan and Guatemala our lesson 
learned, indicated to them that an immediate ISR would be 
essential, and, in fact, consistent with operational security, 
provided images to those countries so that they would be able 
to conduct more rapid and accurate damage assessments.
    We have learned that lesson.
    Mr. Reichert. Thank you. The gentleman's time has expired.
    The chair recognizes the gentlelady from the Virgin 
Islands, Ms. Christensen.
    Mrs. Christensen. Thank you, Chairman.
    And good morning and welcome to the joint committee 
hearing. And although the response was slow and heartbreaking, 
I think we are getting a better understanding this morning of 
why that happened. But we do applaud DOD and the Coast Guard 
for the work that they did when they were on the ground.
    I am going to try to get through as many questions as 
possible. I will start with Assistant Secretary McHale.
    In your response just a few moments ago, you said that you 
were able, based on your experience, to deploy the kinds of 
assets you thought were needed in advance, just based on your 
own assessment.
    I am used to preparing for hurricanes with FEMA. And I am 
wondering, was there that coordination with Department of 
Homeland Security in assessing what assets you had to have in 
place in advance of the storm, or did you make those decisions 
on your own?
    Mr. McHale. We coordinated closely and daily, almost 
continuously, with the Department of Homeland Security. On 
August 23rd, as I mentioned earlier, when Katrina was still a 
tropical storm, we had concerns that a tropical storm passing 
over Florida entering the Gulf would pick up speed and become a 
more severe event, as happened.
    And so what we did was, we went back to the four hurricanes 
that we had addressed in about a six-week period of time last 
year in Florida. And we looked at all the capabilities that we 
had employed in response to those four hurricanes.
    And, typically, that involves massive quantities of meals, 
MREs, surge medical capability, other logistical support, and 
the designation of DOD bases to assist FEMA. We conducted that 
inventory on August 23rd and subsequently shared that 
information with the Department of Homeland Security.
    And finally, what I would point out is that, not only do we 
coordinate with DHS in a crisis environment, there are 
approximately 65 employees who work in my office who work full-
time at DHS. If we were to leave this hearing room right now 
and go over to the Nebraska Avenue complex of DHS, you would 
find DOD employees from my shop co-located, working side-by-
side with their DHS counterparts.
    So the communication is robust and continuous at the staff 
level. The challenge is to make sure that we have the 
operational capabilities that are well-coordinated in a crisis.
    Mrs. Christensen. Major General Rowe, you, in your 
testimony, said that you had been--Northcom had been fully 
engaged in the preparation leading up to Hurricane Katrina. I 
think you said maybe from the 23rd or the 24th.
    And I am glad to hear that, because one of our very first 
trips when this committee was formed was to go to Northcom. And 
it seems as though you have come a long way.
    But my understanding is that there had recently been an 
exercise that included the topping or the breaching of the 
levees. And my question to you is, wasn't that possibility 
considered in your preparation? And, if so, what preparation 
was done to deal with that?
    Major General Rowe. Ma'am, thank you for that question.
    Your references to the exercise about a year ago, by the 
records we have at Northern Command, we did not participate.
    I have some situational awareness personally of New 
Orleans, because my number two daughter is a graduate of Loyola 
of New Orleans and a couple of visits there and aware of the 
situation and the potential.
    We identified when the hurricane was a Category 5--it came 
on land as a 4. We were aware of the potential threat, in the 
past reports and situational awareness materials we have of the 
potential of devastation in New Orleans.
    And we, with great relief, greeted the end of the day on 
the 29th, when the hurricane strike and went into that night, 
with we had dodged a direct hit on New Orleans, because, 
unfortunately, the main brunt of the storm was felt in 
Mississippi.
    Mrs. Christensen. Deputy Secretary Jackson, given all that 
we know now, and the slowness that a lot of us saw and were so 
upset about, there seemed to be difficulty getting to the sites 
of the disaster.
    And we have been focusing on criticizing the slowness of 
the response. But knowing what we know, it sounds as though the 
appropriate response would have been to evacuate everyone.
    So, given that there was an emergency declaration, and we 
knew that the possibility existed for the levees to be breached 
and flooding to occur, given the emergency declaration, wasn't 
it the responsibility--didn't the federal government have a 
greater responsibility to see that that evacuation took place?
    Mr. Jackson. The decision to execute an evacuation order is 
a state and local decision, not a federal decision. We are 
there to support that decision.
    Mike Brown has testified that he strongly encouraged that 
decision. And, in fact, as you know, the local authorities in 
Louisiana did make that decision. And so we were very strongly 
in support of that decision.
    Mrs. Christensen. It just seems to me that, at the point at 
which you are coordinating, there is a point at which you 
realize that the capacity for the state and local to handle 
that has been exceeded, and the Federal Government should have 
automatically stepped in.
    Mr. Reichert. The gentlelady's time has expired.
    The chair recognizes the gentleman from Minnesota, Mr. 
Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and testifying.
    It seems to me that what we are trying to get at is 
unraveling some confusion in deciding who should be in charge 
when. And, frankly, some of the confusion exists and is 
represented right here.
    We have three men in uniform, the commandant of the Coast 
Guard, part of the Department of Homeland Security, and we have 
a General from Northcom, representing the active-duty Army, and 
then we have the head of the National Guard.
    And General Blum said that the National Guard is DOD's 
first responders. But that is part of the question we are 
getting at, whether it is DOD's first responders or the 
Governor's first responders.
    Is the Department of Homeland Security in charge, as 
represented by, in this case, Admiral Allen down in New 
Orleans? Or, if you are going to bring disparate 
representatives of men and women in uniform, should DOD be in 
charge? Should Northcom be in charge?
    And I think it is the question that we are trying to get 
at. I share the concerns expressed by some of my colleagues 
here in using active-duty forces, not just in reference to 
Posse Comitatus and law enforcement, but do we want the active-
duty military to step in and taking over the responsibilities 
of Governors?
    These are important questions that we are trying to get at. 
And I think there is just confusion about who is who.
    You have an admiral in uniform down in New Orleans, who, by 
the way, is doing a fabulous job. I was down there a week ago 
with a Congressional Delagation (CODEL) from the Armed Services 
Committee and looking at the devastation in New Orleans and 
going all the way up the coast to the Mississippi Gulf Coast is 
just--it is staggering.
    Ms. Davis was with us. And I know that we were both stunned 
by the extent of the devastation, both in its totality and 
its--so we had a gigantic catastrophe here. And that is what we 
are grappling with.
    Is the National Response Plan, is it adequate? Does it 
encompass this sort of catastrophe that crosses over state 
lines?
    We have the question of when we use active-duty forces. 
Assistant Secretary McHale talked about leaning forward. And it 
seems to me that what DOD did, with its active forces, was 
start to deploy them, but I do not think they were employed, in 
the sense that we would think of in the military.
    And so I am sure where I am going with this, because, 
again, it is part of the confusion. I am not sure who I should 
be turning to.
    But let me just continue to pick on you, Assistant 
Secretary McHale, to talk about that issue of what the 
Department of Defense's position might be on, if and when 
Northcom, in this case, or DOD might be asked to take over.
    What is the thinking that is going on now? And help us 
understand that, really a strange blend here, with the citizen 
soldiers that General Blum is talking about, the Coast Guard, 
and active forces, and how we pull that together.
    Mr. McHale. Congressman, when there is a major disaster or, 
under current authorities, even a catastrophic event, the law 
is pretty clear the DHS has the lead.
    The Homeland Security Act of 2002 and various presidential 
directives that have been published since that time make it 
clear that, under the National Response Plan, when a federal 
response is required to a major disaster or a catastrophic 
event, DHS moves into the lead, in terms of coordinating the 
entire federal response.
    And the Department of Defense is in a supporting role. And 
the military chain of command, as you know, from your own 
experience, remains exclusively in military hands.
    The actual command authority of the military forces is 
exercised by the secretary and subordinate officers. But those 
military forces are then used to assist FEMA and DHS.
    Now, here is--
    Mr. Kline. Excuse me. Could I just interrupt for just a 
second?
    Mr. McHale. Sure.
    Mr. Kline. Because, again, we are talking about military 
forces. But are we talking Title 10 or 32? Is the Coast Guard 
being included in military forces? Or are you just talking 
about active-duty forces and who they work for?
    I mean, I think that is part of our confusion here, is who 
is working for whom, even if you are in uniform.
    I am sorry. I did not mean to interrupt.
    Mr. McHale. We are talking about Title 10 forces. They may 
be active-duty forces or they may be Reserve component Title 10 
forces, but we are talking about the military forces that are 
under the command and control of the President of the United 
States, pursuant to Article II of the Constitution.
    That authority is delegated to the Secretary of Defense, 
who in turn delegates that responsibility to command down to 
Admiral Keating, who is the commandant commander at Northcom.
    Initially, the responsibility of the National Guard is a 
state responsibility, a gubernatorial responsibility, where the 
National Guard is under the command and control of the 
Governor.
    In this case, because of the magnitude of the event, and 
the fact that, through an Emergency Management Assistant 
Compact (EMAC) agreement, 50,000 National Guardsmen ultimately 
were moving into the Area of Responsibility (AOR), a decision 
was made to move those Guard forces from state status into 
Title 32 status.
    In Title 32, those 50,000 National Guard remained under the 
command and control of the affected Governor, but they were 
paid for by the Department of Defense. So it is kind of a 
hybrid category.
    The real challenge that we face is this: When a 
catastrophic event occurs that essentially decimates an entire 
region and degrades or destroys the first responder community 
within that region, what should the role of the Department of 
Defense be to, a, provide resources promptly to begin the 
response? And, b, what leadership role, if any, should be 
assigned to the Department of Defense?
    Those are two related but separate questions. In this case, 
we moved very fast.
    But the lesson learned is, in a catastrophic event that 
might be a terrorist attack involving a weapon of mass 
destruction, in the future, we will have to move even faster, 
with more people, more resources.
    The follow-on question is, when we do that, should we be in 
support of FEMA or should we have an assigned leadership 
responsibility? Those questions are related, but they have to 
be answered separately.
    Mr. Reichert. The gentleman's time has expired.
    The chair recognizes the gentleman from Washington, Mr. 
Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Secretary McHale, you mentioned in your testimony--very 
effusive in your praise, essentially, about operations, about 
the ability to move things where they needed to get moved to, 
and so on.
    But you did mention where, if there was a problem, it was 
in the planning. And you did not get into too many details in 
your testimony. So could you give us some details about that, 
what that means?
    And in answering that question, could you talk about some 
of the concerns that we have heard about the--not in terms of 
the unity of effort issue, but the unity of command issue?
    We have heard there was obvious confusion between, ``Who do 
I report to? I am National Guard, I am active-duty, I am 
Reserve, who am I--I am out here on the ground. Who am I 
supposed to be reporting to?'' And if that is what you mean a 
little bit by planning ahead for that.
    And if you can answer those, and leave me some time to ask 
a few more questions, I would appreciate it. Go ahead.
    [Laughter.]
    Mr. McHale. I will see what I can do.
    Mr. Larsen. Yes.
    Mr. McHale. These are tough questions.
    As I indicated in my earlier testimony, by September 10th, 
there were 72,000 military forces that had been deployed into 
the area of responsibility, into the AOR.
    Of the 72,000, 50,000 were National Guard under command and 
control of the affected Governor, 22,000 were active-duty 
military personnel under the command authority of the secretary 
of defense and, ultimately, the President of the United States. 
So you had 72,000 total, 50,000 in the Guard, 22,000 active 
duty.
    General Honore commanded the 22,000 active-duty military 
forces. He coordinated primarily with Major General Landreneau, 
who was the Adjutant General of Louisiana, to ensure that, by 
agreement, by coordination, the activities of the 50,000 
guardsmen would be compatible with the activities, the 
operational activities, of the 22,000 active-duty military 
personnel.
    But technically, the Guard was under the command and 
control of the Governor. The active-duty military personnel 
were under the command of Admiral Keating, the Secretary of 
Defense and the President of the United States.
    However, if that coordination had broken down at any point, 
the President of the United States had the ability to bring the 
Guard into federal service, at which point unity of command 
would have been established and all 72,000 of those forces 
would have been under the command and control of Admiral 
Keating.
    But on a daily basis, General Honore felt confident that 
coordination with Major General Landreneau was working well and 
that it would not be necessary to bring the Guard into federal 
service, though that option always remained as a choice that 
could have been made under appropriate circumstances by the 
President. It proved to be unnecessary.
    With regard to planning, the planning for the deployment 
and operational activities of those 50,000 guardsmen took place 
independently of the planning was conducted at Northcom.
    But I want to emphasize Lieutenant General Blum was pushing 
forward that information so that Northcom would have full 
situational awareness of what the Guard was doing in their 
operational planning.
    Despite the fact that General Blum was pushing that 
information forward, I am not confident that our deliberate 
staff planning and our crisis ever really got fully integrated, 
so that we would not, for instance, deploy multiple helicopters 
from the Guard, from Northcom, maybe from the Coast Guard, to 
pick up the same family from the same roof in a flooded area of 
New Orleans.
    So there was excellent crisis planning, but that planning 
needs to be better integrated in the future.
    Mr. Larsen. So does that need to be pre-event planning, or 
can you even plan for that? Does it have to take place during 
the crisis?
    Mr. McHale. It is both. I think Secretary Jackson can 
better address the catastrophic scenarios that have been 
developed by DHS.
    In my view, based on the scenarios that have been developed 
by DHS, we need better deliberate staff planning in advance of 
the event and then a better mechanism for crisis planning 
during an event to make sure that what the Guard is doing is 
fully known to and compatible with what the active-duty forces 
are doing in the same AOR.
    Mr. Larsen. I am running out of time, and hopefully 
Secretary Jackson can address that, but I have another question 
about, Secretary McHale, your comments.
    You seem to say in your testimony that, as a major disaster 
or as a catastrophic event that was a hurricane, as opposed to 
some other catastrophic event, we learned a lot and we did 
okay, but we maybe are not as prepared as we should be after 
the last four years of trying to be prepared for another 
catastrophic event that could be a terrorist attack or 
something like that.
    Is that what I gathered from your written testimony and 
your oral testimony?
    Mr. McHale. Not quite.
    Mr. Larsen. That is why I wanted to give you that 
opportunity there.
    Mr. McHale. The federal response plan, over many decades, 
and the National Response Plan, during the past year or so, 
have worked pretty well in dealing with recurring major 
disasters, the kinds of hurricanes that statistically occur 
with regularity each year, the kinds of tornadoes that sweep 
across the Midwest every year.
    Those events are terribly tragic for the affected 
communities, but they tend to hit fairly localized areas. And 
the damage has been such that traditional mechanisms of 
response have worked reasonably well.
    Katrina brought forcefully to our consciousness a higher 
level of event, a catastrophic event where an entire region is 
just devastated, where the first responder community is taken 
out by the magnitude of the event, where DOD forces, no matter 
how quickly they arrive, cannot, under the current construct, 
adequately backfill the loss or the near-complete loss of the 
first responder community.
    What do you do in the first day or two after a terrorist 
attack involving a weapon of mass destruction where the damage 
is equal to or greater than that of Hurricane Katrina?
    Hurricane Katrina has forced us, as it should, to look with 
an unflinching eye at what the requirements may be, not in 
response to a major disaster--we were pretty well-prepared in 
that case--but a catastrophic event where tens of thousands of 
Americans may lose their lives, where the first responder 
community is maybe taken out by the event and where a prompt 
response requires something bigger and faster than anything we 
have done before.
    Mr. Reichert. The gentleman's time--
    Mr. Larsen. Just quickly, out of respect for other members, 
I will not push Secretary Jackson right now to respond, but out 
of respect for Secretary Jackson, if you wanted to respond in 
writing to the first question to Secretary McHale, for the 
record, I just wanted to give you that opportunity.
    Mr. Reichert. Thank you. The gentleman's time is expired.
    The chair recognizes the gentleman from Kentucky, Mr. 
Davis.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    I appreciate you coming in to discuss this issue today. I 
have told many groups, and certainly my constituents, that I 
think the real silver lining from Katrina is going to be our 
response to a WMD type of threat, as opposed to looking simply 
at a natural disaster, because of the scope and scale. And in 
that case, we will not have 6 days of advance notice.
    I also share, because of it being the largest disaster that 
hit, from a natural disaster standpoint, on American soil that 
the Constitution works. And I think it is very important that 
we understand that.
    It is interesting, on this panel, that the former 
professional officers have very strong feelings about DOD not 
being in that response capability. That is not our job. I think 
it creates very ominous constitutional questions that later 
generations might inherit. And those of who have worn the 
uniform are sensitive to that fact.
    Nonetheless, I have to say that, with some of these 
questions, the equivalent of the mobilization that began 5 days 
before was the equivalent of moving my home county, 72,000 
people, across the country in the space of a week and being 
open for business. That was much more rapid than any wartime 
deployment we have ever had.
    And I also think it is apparent that much of the alleged 
blame that is being pointed upward in this, and some of the 
implications--I am not speaking here in our discussion today, 
but certainly out in the media, I find it interesting, where--
Robert E. Lee said it was unfortunate that the best generals in 
the Confederacy were all reporters.
    But my point here is the one thing that has been 
remarkable, in the discussion that you all have faced, is that 
we are ignoring the gross and unacknowledged local leadership 
failure that took place in New Orleans, where as many other 
communities did not suffer the same, let's say, complete social 
dislocation.
    I know that is a sensitive discussion. And, you know, we 
saw different responses in different areas. But I think it 
points, you know, as we look in hindsight, there were some 
things that we can do better.
    You, as, let's says, response professionals, who are 
looking at the magnitude of the institution, wrestle with this 
on a daily basis. General Rowe made the comment about starting 
to pick the trash up and just bringing order and discipline.
    And what I would like for you to comment on--I would like 
to address this to those wearing the uniforms today--first, as 
military professionals, would you comment on the impact of 
local leadership in the imminent and the immediate time before 
and the immediate aftermath of an event similar to Katrina?
    And then, second, you know, from an organizational, 
operational or leadership standpoint, would you comment on what 
you think that should be done differently or better, focusing 
on that aspect of leadership, which is the one we have not 
really talked about a lot.
    Lieutenant General Blum. Leadership in any event, whether 
it is the normal management of the course of events or in a 
crisis situation, is paramount. And the better leadership you 
have, usually the better response you have.
    I mean, we have seen that time and time again in history. 
Leadership does make a difference. And leadership comes from 
many different places.
    The question that has come up over and over this morning, 
and I feel compelled to address this, there is no confusion. 
You mentioned a document that trumps all of the plans, all of 
the proposals, and has endured since the initiation of our 
nation.
    It is called the Constitution. It is what us in uniform 
have sworn to defend. And that Constitution was played out in 
the response to Katrina. It was a shared responsibility, which 
is exactly what our founding fathers had in mind.
    The Governors are always in charge, always--underline 
always--in their state. They are in charge until they are no 
longer the Governor.
    The President has a shared responsibility to assist the 
Governors when it becomes beyond their capability or their 
resources. Our President did exactly that.
    There were five states involved in Katrina. They did not 
all need the same level of support and resources, because they 
were not all equally affected by the storm. That was measured 
out.
    All of the response, whether it is coming from the 
Department of Homeland Security or the Department of Defense, 
federal assistance, monies, capabilities, people, equipment, is 
there to support the Governor.
    There is always one person in charge in Louisiana. It is 
the elected Governor. The same goes for Texas, Mississippi, 
Alabama and Florida.
    And the National Guard is a part of the Department of 
Defense. And the President and the Secretary of Defense have a 
clear decision, any time they want, to make sure that the 
National Guard is either responding as a federal force, in 
federal status, in Title 10, or to loan that force to be 
available to be under the command and control of the Governor, 
either in state active-duty, as a pure state militia, or to be 
in Title 32 status, where the check is written by the Federal 
Government, but the forces and direction are given by the 
Governor.
    I do not understand why there is confusion in here. That is 
what our founding fathers intended. That is exactly the way we 
responded to Katrina. That is exactly the way this General, 
officer, and soldier, and citizen, and taxpayer thinks we 
should respond in the future.
    Mr. Reichert. General, thank you so much. It was awkward to 
interrupt the General the first time, but to interrupt the 
General a second time is even more awkward.
    So I apologize, but we do have votes. And we have one more 
member who wants to ask a question.
    And the chair would recognize the gentlelady from New York, 
Ms. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman. And I appreciate the 
expertise of the panel.
    And after sitting here for a couple of hours, and hearing 
all of my colleagues pretty much ask the same question, who is 
in charge, I still want to pursue that.
    And I particularly thank Secretary McHale, because you 
mentioned very clearly that we were very good at moving forces 
in, but the problem was the integration of them.
    And I just hope, because we will not have time to really 
explore this in depth, Secretary Jackson, that a couple of 
months have passed, and I would hope this Administration will 
finally bring to closure who is in charge.
    I would like to refresh many of my colleagues'--some 
comments that took place at a future hearing, when we had 
Admiral Stiroy and Admiral Gilmour report to us. And it was 
clear that they did yeoman work, rescuing thousands and 
thousands of people.
    But when I asked, ``What happened at the nursing home? What 
happened with those who were left behind and died?'' We cannot 
bring those people back today. But the issue was, ``Who did you 
report to? Who gave you direction? Did the helicopters just 
take off and make their own decisions as to who they would pick 
up?''
    And I thought another particular comment--because this 
hearing is quickly coming to a close--was interesting.
    A Maryland state police officer reported a story to NBC 
News about rescuing stranded residents following Hurricane 
Katrina. When a military helicopter swooped down over him, 
someone in the helicopter dropped a bottle to the ground that 
contained a note warning of a dangerous gas leak ahead.
    Now, I am happy that the message was conveyed. It almost 
sounds like we are back in the Paul Revere era. And we should 
not be distributing messages by bottles coming out of 
helicopters.
    So it was clear for me from that hearing and this hearing 
that it is still not clear as to whether the forces are all 
integrated and if, God forbid, we have a major WMD or any other 
kind of attack, who is in charge.
    I would like to pursue in the couple of minutes I have 
left, or maybe 2 minutes, the issue of communications and 
interoperability.
    General Blum, I believe you recently told the House 
Government Reform Committee that Guard units have on average 
only 34 percent of their authorized equipment, including radios 
and other communications equipment.
    You told Congressman Murtha, who served in the Marine Corps 
in Korea and Vietnam, that he probably used the same radios 
that you are using today.
    What are we going to do about this? I mean, again, we 
cannot bring those lives back, but in an emergency, if these 
agencies cannot communicate with each other, we are in trouble.
    Is it possible? And it seems to me that the military has 
the most advanced, well-funded research and development in the 
country. Where are we going with this? Why can't we develop 
interoperability?
    Is there anything that DOD can do to help solve the 
problems of communications interoperability for first 
responders? And what kind of technology is in the DOD pipeline?
    So, in conclusion, I would hope--Secretary Jackson, you can 
get back to me in the committee--as to looking forward, if 
something happened now, are we better integrated, Secretary 
Jackson and Secretary McHale?
    And in terms of interoperability, are we still in such 
desperate shape that people cannot talk to each other and they 
are going to have to throw bottles out of helicopters, so you 
can get those messages?
    I still it--oh, it is still a green light. If someone could 
answer those questions.
    Lieutenant General Blum. I will start. The reason we had 
the throw the bottle out--
    Mrs. Lowey. Maybe you could give me a quick response, and 
then give us some details.
    Lieutenant General Blum. It will be quick. I need $1.3 
billion to buy the radios I need so I do not have to throw 
bottles with notes. That is to begin with.
    I back that comment up with a congressional audit that this 
body commissioned through the GAO to look at the equipment 
problems in the Guard. These are not my figures; this is the 
result of a year-long, in-depth look by them. You can see the 
results.
    That line is going the wrong way, and we can no longer 
accept risk by under-equipping the National Guard, which is an 
operational force that will respond in moments.
    And it cannot wait for the equipment. It has to have it in 
the hands of the aviators, the citizen soldiers and airmen now, 
before the event, so that we can be ready when we are called.
    Mrs. Lowey. I would address a follow-up to that to both 
Secretary McHale and Secretary Jackson. It is not just the 
National Guard. It is the police. It is the firefighters. It is 
the Emergency Mdeical Services (EMS) workers. The 
interoperability situation in this country is still a disaster.
    Lieutenant General Blum. The National Guard, because of the 
wisdom of the Congress, has civil support teams with a 
communications band that does exactly that, Congresswoman.
    They can, if somebody is talking on an apple and General 
Rowe is talking on an orange, a different type of system 
altogether, it can net the two of them. I flew seven of those 
into the area to make that integration happen. We brought them 
in from West Virginia and neighboring states, as far away as 
West Virginia.
    Mr. Reichert. General--
    Mrs. Lowey. Well, we have to close--
    Mr. Reichert. The gentlelady's time has expired.
    Mrs. Lowey. --but I hope we can continue.
    Mr. Reichert. And, General, that is three times. So please 
forgive me one more time.
    I would like to recognize--we have a visitor this morning 
who is not a member of either committee, but I would like to 
give her an opportunity to ask a question, if she chooses, the 
gentlelady from California, Ms. Davis.
    Mrs. Davis of California. Thank you very much, Mr. 
Chairman. I appreciate that.
    And I am here really as a member of one of the gap panels, 
and we have been looking at this issue in Homeland Security and 
also, certainly, the military response.
    And I had an opportunity to travel, as Mr. Kline did, to 
the region recently. And, you know, to a great extent, I think 
you have really answered some of those questions. We met with 
General Blum yesterday.
    But I wanted to focus quickly on that triggering event, at 
the time at which we know that local responses have been 
incapacitated. The Admiral spoke on the--when we were in New 
Orleans there about the fact that we were really dealing with a 
hybrid incident here.
    It went from a disaster to a major national incident. And, 
in fact, you know, we understand that there could be more.
    Are we in a position that we can gain that successfully so 
that local responders and communities can begin to think the 
process--
    Mr. Jackson. We really are--
    Mrs. Davis of California. --about which point we know that 
we have this issue on our hands? How do we do that? Do you have 
the resource to do that? What can the Congress provide to you 
so that we do that better?
    Mr. Jackson. We really are focused on that.
    And that is a question the President addressed when he 
asked the Department of Homeland Security to review with state 
and local officials the evacuation planning, the incident 
management plans of the major metropolitan areas in this 
country. So we have lost that, that enterprise, that 
investigation, that review, collectively.
    And an important part of what we are all talking about here 
is a more vigorous exercise program, together with the federal 
family and our state and local partners. Without that, we will 
not have the preplanning and the knowledge in advance of these 
events to be able to manage them effectively.
    So we need to put more focus there. We need to complete and 
then put a continuous focus on those evacuation plans, those 
emergency response management plans for the state and local 
colleagues.
    Mr. Reichert. And I do apologize to the gentlelady from 
California, but we are out of time.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Mr. Reichert. We must run over and do our voting duties.
    I thank the witnesses for their valuable testimony and the 
members for their questions. The members of the committee may 
have some additional questions for the witnesses. And we ask 
you to respond to these in writing.
    The hearing record will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]

                             For the Record

                  Questions from the Hon. Mike Rogers

                               AVIAN FLU

    Mr. Rogers: Avian flu, technically known as the H5N1 virus, is 
spreading overseas, with outbreaks in Asia, Russia, Eastern Europe and 
England. On November 1st, the Associated Press reported that over 30 
wild ducks tested positive for the less serious H5 bird flu virus in 
Canada. If the virus mutates and begins to spread from person to 
person, a pandemic could occur.
    According to the L.A. Times of October 13, 2005 (news clip 
attached) Assistant Secretary of Defense for Homeland Defense, Paul 
McHale, indicated that DoD was preparing plans to respond to an 
outbreak of avian flu. Assistant Secretary McHale reportedly stated 
that an outbreak of avian flu could be so serious that active duty 
forces may be required to support the National Guard in enforcing 
quarantines.
    What is your view of the role of DoD in responding to an avian flu 
outbreak? Who will be in charge?
    Major General Rowe: DoD will support the Primary and Coordinating 
Federal Agencies appointed by the President to lead the nation's 
response to a flu outbreak. This support can be requested by the 
Primary Federal Agency or through individual states. The President or 
the Secretary of Defense would direct DoD to provide this support. 
Commander, USNORTHCOM would be the supported Commander for the 
coordination of the DoD response within the continental United States.
    For a widespread outbreak across the United States, Commander, 
USNORTHCOM may elect to designate a Joint Force Land Component 
Commander, who would orchestrate nation-wide efforts in support of the 
Primary Federal Agency. USNORTHCOM, in conjunction with the Services, 
would be responsible for ensuring Force Health Protection of DoD 
personnel within its area of responsibility.

    Mr. Rogers: How will DoD coordinate with the Department of Homeland 
Security, CDC, and USDA in the event of an avian flu outbreak? With 
state and local governments?
    Major General Rowe: At the national level, the Office of the 
Secretary of Defense coordinates with other federal agencies through 
the Homeland Security Council Interagency Incident Management Group.
    At the state and local level, as directed by the President or 
Secretary of Defense, the USNORTHCOM-appointed Defense Coordinating 
Officer(s) would coordinate with FEMA Region representatives, who work 
with state emergency management officials.

    Mr. Rogers: Which agency will ultimately determine whether 
quarantines are necessary, and how will quarantines be enforced?
    Major General Rowe: The Department of Health and Human Services 
will determine the quarantine policy for the United States. As for 
quarantine enforcement, this issue is best addressed by the senior 
civilian leadership of the Department of Defense.

    Mr. Rogers: If the military becomes involved, who will be the 
Federal Government's lead spokesman?
    Major General Rowe: The federal government's lead spokesperson 
would be appointed by the President.

    Mr. Rogers: What types of medical supplies and other assets will 
DoD be able to provide to state and local public health providers to 
help respond to a national medical emergency, such as a pandemic flu?
    Major General Rowe: As directed by the President or the Secretary 
of Defense, DoD could assist local, state and federal agencies with a 
wide variety of assets and capabilities to respond to a national 
medical emergency. DoD could provide assistance with local and general 
planning prior to and during catastrophic events. At the local and 
regional level, this would be accomplished with DoD's Joint Regional 
Medical Planners and at the strategic level with other health services 
operations officers.
    If directed, DoD could provide the following assistance:
        <bullet> Logistics management to help move supplies in a timely 
        and efficient manner utilizing the Single Item Medical 
        Logistics Management capability
        <bullet> Patient movement and evacuation
        <bullet> Pharmaceutical distribution from the Strategic 
        National Stockpile
        <bullet> Expeditious field medical facilities and staffing
        <bullet> Routine trauma and surgical supplies, ventilator 
        support, and pharmaceuticals
        <bullet> Preventive medicine support
        <bullet> Mortuary affairs support
        <bullet> Lab support

    Mr. Rogers: Alabama has one of the largest poultry operations in 
the country. There is growing concern in Alabama and elsewhere about 
news reports on the spread of avian flu overseas. If a virus kills 
thousands of birds or animals, what role will the military play, if 
any, in destroying carcasses and monitoring medical hazards tied to the 
dead animals?
    Major General Rowe: As directed by the President or Secretary of 
Defense, DoD will provide assistance within its capabilities and 
consistent with applicable laws.

    Mr. Rogers: If USDA does not have sufficient resources to deal with 
a widespread emergency, will DoD provide support to USDA? If so, what 
type and to what extent?
    Major General Rowe: The military has been identified as a 
supporting agency in the National Response Plan for all 15 Emergency 
Support Functions (ESF), including providing assistance to USDA in the 
execution of its firefighting (ESF#4) and agriculture and natural 
resources (ESF#11) missions. As directed by the President or Secretary 
of Defense, DoD would provide assistance within its capabilities and 
consistent with applicable laws in response to a request from the USDA.

    Mr. Rogers: On Oct 27, 2005, the Subcommittee on Management, 
Integration and Oversight held a hearing on the new role of the Chief 
Medical Officer in the Department of Homeland Security. At that 
hearing, we heard testimony that the Chief Medical Officer does not 
have sufficient authority to prepare for a coordinated Federal response 
to a national medical emergency.
    In the event of a major medical emergency, how should the Homeland 
Security CMO work with the National Guard and the DoD in coordinating 
the government's response?
    Major General Rowe: In the event of a major medical emergency, the 
Homeland Security Chief Medical Officer would work within the National 
Response Plan. Before any event, the Chief Medical Officer should work 
through the Homeland Security Council Interagency Incident Management 
Group to coordinate DoD and National Guard responses.

    Mr. Rogers: Is there one point of contact in the military chain of 
command with whom the Homeland Security Chief Medical Officer should 
begin working now to coordinate a possible military response in a major 
medical emergency?
    Major General Rowe: The Chief Medical Officer should work through 
the Homeland Security Council Interagency Incident Management Group to 
coordinate DoD and National Guard responses.

                 Questions from Hon. Bennie G. Thompson

RELATIONSHIP BETWEEN THE NATIONAL MARITIME STRAGEGIES AND THE NATIONAL 
                          INFRASTRUCTURE PLAN

    Mr. Thompson: What is the relationship between the National 
Maritime Strategies and the National Infrastructure Protection Plan?
    Major General Rowe: As described below, the Interim National 
Infrastructure Protection Plan (NIPP) and National Strategy for 
Maritime Security (NSMS) (and its supporting plans) are complementary.
    The NSMS, signed by the President in September 2005, established 
national policies for ensuring the safety and economic security of the 
United States and directed the development of eight supporting national 
plans to address different aspects of maritime security. One of the 
strategic objectives contained in the NSMS is the objective to 
``Protect Maritime-Related Population Centers and Critical 
Infrastructure.'' To fulfill this objective, the President directed 
several strategic actions to be addressed in the subordinate plans; 
protecting maritime infrastructure is addressed within the NSMS by:
        (a) embedding security into commercial practices;
        (b) deploying layered security; and
        (c) assuring the continuity of the marine transportation 
        system.
        Four of the eight subordinate plans address aspects of maritime 
        infrastructure protection. These plans are the Maritime 
        Operational Threat Response Plan, the Maritime Infrastructure 
        Recovery Plan, the Maritime Transportation System Security 
        Recommendations and the Maritime Commerce Security Plan. The 
        Maritime Operational Threat Response Plan was approved by the 
        President in October 2005. The Maritime Commerce Security Plan 
        was issued on 28 Jun 05. The remaining plans are in 
        coordination within Departments at the federal level.
    The NSMS and supporting plans specifically address the coordinated 
federal, state, local and tribal strategic priorities and actions for 
infrastructure protection in the maritime domain.
    The Interim NIPP, dated February 2005, is a Department of Homeland 
Security document which broadly addresses infrastructure protection at 
the national level. From the USNORTHCOM perspective, this interim plan 
addresses infrastructure protection generally and, when finalized, will 
provide a means of broadly integrating critical infrastructure 
protection efforts at the national level.

                           INFLUENZA PANDEMIC

    Mr. Thompson: Let's say, hypothetically that an Influenza Pandemic, 
which experts fear could develop from the highly contagious avian flu 
circulating in Asia, hits the United States. Should Posse Comitatus be 
reconsidered?
        <bullet> Should the military be in charge?
        <bullet> Should DHS be in charge?
        <bullet> Should DHHS be in charge?
        <bullet> Do you believe that DoD or another department has 
        current authority to quarantine the sick?
        <bullet> What role does the state have in responding to the 
        pandemic?
        <bullet> What is the role of the National Guard?
    Major General Rowe: The Posse Comitatus Act does not restrict the 
military from rendering support to Primary Federal Agencies in the case 
of health emergencies that do not involve law enforcement tasks. In the 
case of widespread civil disorder, the President could potentially 
invoke the Insurrection Act (10 USC S331-335). Existing authorities are 
sufficient for the use of DoD assets in the roles envisioned.
    The decision to place any single agency in charge is up to the 
President.
    DoD's principal authorities for isolation/quarantine are focused on 
Federal Health Protection for DoD personnel. If authorized by the 
President, the Secretary of Defense may task DoD to aid in enforcement 
of isolation/quarantine under existing authorities and statutes.
    All states have the responsibility to safeguard the health and 
welfare of their citizens and are responsible for intrastate isolation/
quarantine. If quarantine volume extends beyond the capabilities of 
these officials, state Governors may direct the National Guard to aid 
state and local governments. Title 42 USC S264-272 currently provides 
the U.S. Surgeon General, and officials at ports of entry, the 
authorities necessary to impose quarantine.
    Federal, state and local health authorities may have concurrent 
authority to impose quarantine in the case of a quarantine imposed on 
an arriving international flight.

                          POSSE COMITATUS ACT

    Mr. Thompson: In your opinion, do you think the Posse Comitatus Act 
must be amended in order for the military and the National Guard to 
provide support during a disaster?
    Major General Rowe: No, the Posse Comitatus Act has in no way 
hampered U.S. Northern Command's ability to accomplish its homeland 
defense and civil support missions.

                            THE STAFFORD ACT

    Mr. Thompson: Should the President have the ability to declare a 
disaster under the provisions of the Stafford Act and direct Federal 
aid without a State request? In what situations do you think this 
should be permissible?
    Major General Rowe: The Stafford Act currently allows the President 
to make a declaration of an emergency when the affected area is one in 
which ?the United States exercises exclusive or preeminent 
responsibility and authority? under the U.S. Constitution or laws of 
the United States. In this circumstance, the President may make this 
declaration on his own, without a request from the Governor. The 
President at his discretion will determine when such a declaration is 
necessary and in the interest of the United States.

                         PRESIDENTIAL AUTHORITY

    Mr. Thompson: Should the president have the ability to order 
Federal troops into a state when the state Governor has specifically 
stated that he/she does not want nor needs these troops?
    Major General Rowe: This is an issue that is best addressed by the 
DoD civilian leadership.

                          FEMA's CAPABILITIES

    Mr. Thompson: Do you believe that FEMA under the new leadership is 
currently able to respond to a catastrophic event? If so, why?
    Major General Rowe: We believe it is inappropriate for DoD to 
comment on the capabilities of another federal agency.

                          FEMA's CAPABILITIES

    Mr. Thompson: What should FEMA do to improve communications during 
a catastrophic event?
    Major General Rowe: The ability to communicate is vital in 
responding to a catastrophic event. Our nation's communications 
architecture has several areas in which we can make improvements. Some 
of the areas we are looking into with our interagency partners include:
        <bullet> Creating a comprehensive national strategy to address 
        interoperable emergency communications and the publication of 
        an associated implementation plan.
        <bullet> Standardizing and acquiring rapidly deployable 
        redundant communications capabilities for major metropolitan 
        areas. Emergency response planning must account for the 
        probability that first responders and local governments will be 
        forced to initially operate without the benefit of existing 
        commercial and government communication systems and commercial 
        power.
        <bullet> Developing a mechanism similar to the Civil Reserve 
        Air Fleet for the communications industry.
        <bullet> Harmonizing existing spectrum allocations at the 
        national level to allow DoD, federal, state and local 
        responders to operate in the same bands allowing 
        interoperability and complimentary system roll outs.

                          PLANS FOR ASSISTANCE

    Mr. Thompson: Briefly discuss the plans you have in place currently 
to prepare for how you will interact with the local and state 
governments when they need assistance. How often do you conduct drills 
on these plans?
    Major General Rowe: USNORTHCOM Functional Plan 2501, Defense 
Support of Civil Authorities, describes DoD support to civil 
authorities during natural disasters and civil emergencies.
    USNORTHCOM Pandemic Influenza Concept Plan (DRAFT), synchronizes 
the DoD response in support of the Primary Federal Agency.
    USNORTHCOM's primary interaction is at the federal level. We have 
limited participation in local and state planning exercises. When in 
attendance, we act as observers, not planners. We participate in 
several Regional Response Team tabletop exercises and planning efforts 
each year, which includes federal, state and local participants. In 
addition, USNORTHCOM maintains an electronic library of all available 
state pandemic influenza response plans.

                         NATIONAL RESPONSE PLAN

    Mr. Thompson: The National Response Plan (NRP) lays out the 
Emergency Support Functions (ESF) assigned to Federal, state and local 
agencies. What is your understanding of the state's role under this 
plan? Do you think it needs to be revised?
    Major General Rowe: In accordance with the NRP for catastrophic 
disasters, federal assistance will be requested by the states when 
their ability to respond is overwhelmed. Therefore, each State Office 
of Emergency Preparedness (or equivalent department) should stay fully 
engaged in federal planning efforts to increase visibility of their 
capabilities and interests.
    The effectiveness of the National Response Plan is an issue that is 
best addressed by DoD's senior civilian leadership.

                           MILITARY RESOURCES

    Mr. Thompson: Does the military currently have the resources to 
take the lead in responding to catastrophic incidents? If not, what 
will you need to perform this mission?
    Major General Rowe: The Secretary of Defense is in the best 
position to address the DoD's capacity to assume a lead role in 
catastrophic incidents within the United States.
    Mr. Thompson: How will this new mission impact your warfighting 
capabilities?
    Major General Rowe: As stated above, the Secretary of Defense is in 
the best position to address the DoD's capacity to assume a lead role 
in catastrophic incidents within the United States.

                        COMMUNICATIONS PLANNING

    Mr. Thompson: Assistant Secretary McHale told the Subcommittee that 
there was a disconnect in the communications and planning between 
USNORTHCOM and the National Guard. Why was there a disconnect and what 
is USNORTHCOM doing to ensure that in the future, plans will be 
coordinated and there will be better communication?
    Major General Rowe: Assistant Secretary McHale stated that "the 
planning conducted by the National Guard, though superbly executed, was 
not well-integrated with the Joint Staff and NORTHCOM." The National 
Guard (when not federalized under Title 10) and USNORTHCOM provide 
support through two distinct chains of command. National Guard units in 
state status are under the command and control of the Governor. 
USNORTHCOM, as the designated Department of Defense supported commander 
for the response, provides command and control of force capabilities 
from the active component, as approved by the Secretary of Defense. In 
any circumstance when there are separate chains of command, it is 
difficult to achieve a 100% integrated effort.
    USNORTHCOM and the National Guard work together to improve 
situational awareness and gain greater unity of effort. The key to 
achieving improved integration and making planning more effective is to 
conduct realistic exercises, allowing the opportunity to train and 
build staff relationships between the organizations. In an additional 
step to build staff relationships and mutual understanding, the 
National Guard has placed a full-time representative in the USNORTHCOM 
Joint Operations Center. USNORTHCOM is also working in cooperation with 
the National Guard Bureau on initiatives such as the Joint CONUS 
Communication Support Environment and the Joint Force Headquarters-
State to improve future coordination, communications and collaboration, 
as well as a state engagement plan.

                          COMMAND AND CONTROL

    Mr. Thompson: What is the command and control relationship between 
NORTHCOM and the National Guard during a catastrophe?
    Major General Rowe: USNORTHCOM does not exercise command authority 
over the forces assigned to the National Guards of the States, 
Territories, or the District of Columbia, unless those forces are 
federalized under Title 10 and assigned to USNORTHCOM. In most cases, 
such as the response to Hurricane Katrina, National Guard troops 
operate under the control of the state Governor in a State Active Duty 
and/or Title 32 status. The relationship between USNORTHCOM and 
National Guard units is one of coordination only, unless the National 
Guard troops have been federalized.

                           CONTRACTOR SUPPORT

    Mr. Thompson: Please advise if any contractors assisted in the 
preparation of the answers to these Questions for the Record; the names 
of such contractors and the companies with which they are associated; 
the precise role of any such contractors in preparing the answers; the 
percentage of the work in preparing these answers the contractors 
performed; and how much the contractors were paid for their assistance 
in preparing the answers.
    Major General Rowe: Two contractors (Mr. Ronnie Graham and Mr. Jeff 
Hill) assisted in the preparation of three responses. Consistent with 
their contract, these individuals support USNORTHCOM under a services 
contract awarded to SY Coleman. They collected information and 
formulated response, which were provided to and accepted by the 
USNORTHCOM leadership. They contributed a total of four hours to this 
task. Based upon the total cost of the service contract to the federal 
government, we estimate the cost of this work at $320.

                                 <all>

</pre></body></html>
